<html>
<title> - PREPARING TO HEAD BACK TO CLASS: ADDRESSING HOW TO SAFELY REOPEN BUREAU OF INDIAN EDUCATION SCHOOLS</title>
<body><pre>[Senate Hearing 116-357]
[From the U.S. Government Publishing Office]



                                                       S. Hrg. 116-357
 
                   PREPARING TO HEAD BACK TO CLASS: 
                    ADDRESSING HOW TO SAFELY REOPEN 
                   BUREAU OF INDIAN EDUCATION SCHOOLS

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 29, 2020

                               __________

         Printed for the use of the Committee on Indian Affairs
         
         
         
         
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]         






               U.S. GOVERNMENT PUBLISHING OFFICE 
42-457 PDF              WASHINGTON : 2021 

         


                      COMMITTEE ON INDIAN AFFAIRS

                  JOHN HOEVEN, North Dakota, Chairman
                  TOM UDALL, New Mexico, Vice Chairman
JOHN BARRASSO, Wyoming               MARIA CANTWELL, Washington
LISA MURKOWSKI, Alaska               JON TESTER, Montana,
JAMES LANKFORD, Oklahoma             BRIAN SCHATZ, Hawaii
STEVE DAINES, Montana                CATHERINE CORTEZ MASTO, Nevada
MARTHA McSALLY, Arizona              TINA SMITH, Minnesota
JERRY MORAN, Kansas
     T. Michael Andrews, Majority Staff Director and Chief Counsel
       Jennifer Romero, Minority Staff Director and Chief Counsel
       
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 29, 2020....................................     1
Statement of Senator Cortez Masto................................    11
Statement of Senator Hoeven......................................     1
Statement of Senator Udall.......................................     2

                               Witnesses

Dearman, Tony L., Director, Bureau of Indian Education, U.S. 
  Department of the Interior.....................................     3
    Prepared statement...........................................     5
Hinds, Marita, President, National Indian Education Association..    13
    Prepared statement...........................................    15
Yarlott, Jr., Dr. David, Chair, American Indian Higher Education 
  Consortium Board of Directors; President, Little Big Horn 
  College........................................................    17
    Prepared statement...........................................    19

                                Appendix

Allis, Kevin J., CEO, National Congress of American Indians, 
  prepared statement.............................................    35
Etcitty, Jordan, Executive Director, Dine Bi Oita School Board 
  Association, Inc., prepared statement..........................    37
Response to written questions submitted by Hon. Tom Udall to 
  Marita Hinds...................................................    38


                   PREPARING TO HEAD BACK TO CLASS: 
                    ADDRESSING HOW TO SAFELY REOPEN 
                   BUREAU OF INDIAN EDUCATION SCHOOLS

                              ----------                              


                        WEDNESDAY, JULY 29, 2020


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 3:48 p.m. in room 
628, Dirksen Senate Office Building, Hon. John Hoeven, 
Chairman of the Committee, presiding.

            OPENING STATEMENT OF HON. JOHN HOEVEN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    The Chairman. Good afternoon. We will call this hearing to 
order.
    Before we go on, I want to remind those members who are 
connecting with us remotely to mute your microphone. This will 
cut down on the static feedback in the hearing room.
    Today, the Committee will receive testimony from the 
Director of the Bureau of Indian Education and two tribal 
organization witnesses on preparing to head back to class, 
addressing how to safely reopen Bureau of Indian Education 
Schools.
    The Federal Government has a treaty and trust 
responsibility to deliver quality education to Native students. 
Most of this education is delivered by the Bureau of Indian 
Education at the Department of the Interior. BIE oversees 183 
elementary and secondary schools, and operates two post-
secondary schools. These schools are located on or near 63 
Indian reservations in 23 States with approximately 48,000 
students enrolled in BIE schools.
    Fifty-five schools are operated directly by the BIE. In 
addition, there are two BIE-operated colleges located in Kansas 
and New Mexico. In my home State of North Dakota, there are 11 
BIE funded schools.
    We are approaching the time of year when students across 
the Country usually return to school. However, this year, 
unlike years past, bring a new dynamic in the mix with the 
COVID-19 pandemic. The Centers for Disease Control and 
Prevention states that American Indians and Alaska Natives are 
a racial and ethnic minority group that are at increased risk 
of contract COVID-19 or experiencing severe illness. Because of 
these high rates, Native communities have taken much-needed 
measures to protect their people.
    Most BIE schools have been closed since March. Since then, 
Congress passed the CARES Act, which appropriated $69 million 
for the Bureau of Indian Education. Through the U.S. Department 
of Education an additional $153 million was sent to the BIE for 
mitigating and addressing COVID-19. These funds were also 
distributed to tribal colleges and universities. In total for 
fiscal year 2020, Congress has appropriated $1.9 billion for 
the operation of BIE schools.
    The BIE has at least four ongoing consultations on spending 
the money from the CARES Act and reopening schools. I am 
curious to see how those consultations are going. I hope 
today's hearing can better guide BIE, its tribally-controlled 
schools and tribal colleges and universities in moving forward 
to safely reopen schools.
    I look forward to hearing from the Administration on what 
this plan looks like. I want to thank Director Dearman for 
appearing today in front of our Committee.
    Before we hear from our witnesses, I want to turn to Vice 
Chairman Udall for his opening statement.

                 STATEMENT OF HON. TOM UDALL, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Udall. Thank you, Chairman Hoeven, for calling 
today's hearing.
    As this Committee knows all too well, the education of 
Native children has a deeply flawed history in our Country. So 
whenever we start a discussion about Native education, I am 
first and foremost inspired by all that Native youth and 
teachers have been able to accomplish against all the odds. 
Their resiliency, tenacity, and dedication to their people is 
wholly inspiring, and should serve as an example to Congress 
and to this Administration. We must meet their resolve with our 
own, especially as we continue to battle COVID-19 on every 
front in our communities, including our schools.
    When I look at the state of Federal COVID response for 
schools in Indian Country, I am left with an overwhelming 
feeling that we have fallen far short. Congressional foot-
dragging on COVID-19 relief negotiations has left Bureau of 
Indian Education schools and tribal colleges and universities 
without the funding they need to prepare for the upcoming 
school year. It is our fiduciary charge, our trust 
responsibility, to make sure that these schools either have the 
resources they need to safely reopen their campuses or to offer 
meaningful distance learning opportunities. It is 
unconscionable that political fights, not policy needs, are 
driving the COVID relief response.
    As for the Administration, I would describe its efforts as 
woefully inadequate at best, and dangerously irresponsible at 
worst. Just one example: BIE's delay in issuing critical school 
closure guidance and inability to monitor the safety of campus 
shutdowns reportedly has serious consequences. News 
investigations have linked BIE's response delay to community 
spread of the virus on the Navajo Nation, even to the death of 
some BIE staff. OSHA is now looking into the matter.
    Once all the BIE school campuses closed, my office began 
asking the Administration a very simple but very important 
question: are BIE students receiving any form of instruction 
during this pandemic? When my staff couldn't get an answer, I 
sent a letter to Secretary Bernhardt and Secretary DeVos on 
June 8th. I have yet to receive a response from either 
department. More than four months after the closures, it sounds 
like BIE still doesn't have the answer.
    During this same period, the Administration was slow 
responding to educational waiver requests from tribes. It also 
took its time releasing CARES Act funding to BIE schools and 
TCUs, taking over three months to get these funds out the door, 
leaving tribal colleges and schools without access to Federal 
COVID-19 relief resources.
    The delays are seemingly endless, and they have a real 
impact on whether these schools will be ready for the coming 
school year. Now, just days away from the start of the school 
year, I understand that BIE has yet to finalize its reopening 
guidance, conduct COVID-19 facility needs assessments, or 
figure out how to start closing the digital divide. Tribes, 
families, and school staff have been left to navigate these 
uncharted waters alone. When combined with the fact that the 
BIE has dodged this Committee's repeated briefing requests, I 
am left wondering what exactly has the department and the 
bureau been doing this last few months. It is shameful.
    Mr. Dearman, I know you can agree this failure cannot 
continue. BIE must do better.
    Before I wrap up, I want to extend a special welcome to our 
witness from the National Indian Education Association, Marita 
Hinds, who is a member of the Tesuque Pueblo in my home State 
of New Mexico. Marita is a graduate of the Institute of 
American Indian Arts, has worked in both K through 12 and 
higher education, is dedicated to advancing Native education 
opportunities for her tribe and all of Indian Country. I am 
thankful she is able to join us for this important discussion 
today.
    Thank you again, Mr. Chairman.
    The Chairman. Thank you, Vice Chairman Udall.
    With that, we will turn to Director Dearman for his 
remarks.

   STATEMENT OF TONY L. DEARMAN, DIRECTOR, BUREAU OF INDIAN 
           EDUCATION, U.S. DEPARTMENT OF THE INTERIOR

    Mr. Dearman. Good afternoon, Chairman Hoeven, Vice Chairman 
Udall, and members of the Committee. Thank you for the 
invitation to appear again on behalf of the Bureau of Indian 
Education) to discuss the challenges we are addressing as we 
work to safely reopen schools for students and staff.
    As a teacher and former BIA school principal, spring is 
normally a time for celebration when we join together to honor 
the academic successes of our students through award ceremonies 
and graduations. Unfortunately, this year has been different 
for so many Indian students and families across the Country.
    As a father, I virtually watched my daughter, a senior co-
valedictorian at BIE's Riverside Indian School deliver her 
graduation speech remotely. The moment she worked so hard to 
achieve went from being held among her peers to being telecast 
by video.
    Our personal situation is nothing compared to those 
students and families who have lost loved ones during this 
pandemic, but my daughter's graduation is similar to so many 
experienced by students across the Country this year. Indian 
Affairs and BIE staff across the Country understand the 
hardships caused by COVID-19. Our staff are collectively 
dedicated to ensuring that students return to a safe scholastic 
environment as possible when schools reopen this fall.
    But as you know, there is nothing normal about these times. 
After the end of our tribal consultation period, which closes 
today, BIE will provide formal recommendations and guidance 
regarding reopening, once we have evaluated the comments 
received.
    Also, know that BIE's dedicated staff are already actively 
working with their schools, communities, States, and tribal 
leaders to better understand school level needs to help us 
achieve the goal for on-site, in-person learning. As BIE 
supports school site reopening, we are using the lessons 
learned in the spring to improve our coordination and 
communication this fall.
    BIE leadership has instituted a school reopening task 
force, led by our chief academic office. This group of 
education experts is working with tribes and schools to assist 
in establishing individual reopening plans that incorporate the 
latest guidance from the CDC and the Department of Education.
    They are also reviewing best practices and discussing with 
States and the Department of Defense school system to ensure a 
safe reopening for students and staff.
    Additionally, due to the importance of our students' mental 
health needs, the BIE has worked quickly to provide mental 
health support. In partnership with the National Indian 
Education Association, BIE held webinars regarding self-care 
and wellness to address the impacts of trauma.
    We also certified more than 300 BIE staff who obtained 
certificates in youth mental health first aid, and we are 
providing additional time for professional development at the 
school level.
    The BIE is also working with the Indian Affairs partners to 
address the many IT needs of schools. BIE coordination with 
Indian Affairs is implementing a pilot program to turn school 
buses into mobile hot spots to help our students and 
communities with connectivity. We are also working with our 
schools to determine their connectivity needs and address 
technology gaps before the start of the school year.
    Finally, the BIE is assisting schools in preparing their 
CARES Act funding spend plans to address local challenges and 
needs. As part of this process, the BIE school operation 
division will monitor CARES Act funding to ensure schools have 
the funds needed to support their students as we work to 
reopen.
    The BIE, just like the Department of Defense and State 
school systems will face ever-changing circumstances once 
school begins. The BIE is prepared to rotate between on-site 
and distance learning models if COVID-19 spikes occur, but our 
goal remains on-site, in-person learning.
    In anticipation of the coming challenges in the fall, the 
BIE is working closely with our schools to maximize purchasing 
power and government contracts to ensure they have the IT 
equipment necessary to help their students achieve 
academically.
    Chairman Hoeven, Vice Chairman Udall, and members of the 
Committee, thank you for the opportunity to present testimony 
today to provide the Committee an update regarding our work to 
ensure a safe return for our students and staff.
    For more information, I hope stakeholders will visit the 
Indian Affairs COVID-19 web page, which has the latest 
information regarding BIE reopening.
    Thank you for your time, and I would be honored to answer 
any questions you may have.
    [The prepared statement of Mr. Dearman follows:]

   Prepared Statement of Tony L. Dearman, Director, Bureau of Indian 
               Education, U.S. Department of the Interior
    Good afternoon Chairman Hoeven, Vice Chairman Udall, and Members of 
the Committee. Thank you for the invitation to appear again on behalf 
of the Bureau of Indian Education (BIE). This is a challenging time for 
schools and students across the country and BIE schools face additional 
hurdles due to their geographically isolated locations, aging 
infrastructure and well documented systemic challenges. As such, I am 
glad to be here today to discuss safely reopening BIE schools.
Introduction
    As an educator and former BIE school administrator, spring is 
normally a time for celebration where we collectively join to honor the 
academic successes of our students through award ceremonies and 
graduations. Unfortunately, this year has been different for so many 
Indian students and families across the country.
    As a father, I virtually watched my daughter, a senior and co-
valedictorian at Riverside Indian School--an off-reservation BIE 
boarding school, deliver her graduation speech remotely. The moment she 
worked so hard to achieve went from being held among her peers to being 
a telecast by video. Our personal situation is nothing compared to 
those students and families who have lost loved ones during this 
pandemic, but my daughter's graduation is similar to so many 
experienced by students across the country.
    It's important to understand that Indian Affairs and BIE 
leadership, career and school staff across the country understand the 
hardships caused by Coronavirus Disease 2019 (COVID-19) and are 
dedicating ourselves each day to ensure students have as normal a 
scholastic environment as possible when schools reopen this fall. 
However, as you know, there is nothing normal about these times. BIE 
staff across the organization are actively working with their schools, 
communities, states and tribal leaders to better understand school 
level needs.
BIE School Site Closures
    As the COVID-19 pandemic spread, BIE and Indian Affairs worked 
directly with tribes and school leaders to close all BIE school sites 
as expeditiously and safely as possible. Overnight BIE worked to ensure 
students were provided academic services via distance learning options 
and ensured critical services, such as school lunches, were provided in 
a safe environment. When tribes requested additional support like at 
Navajo Nation, BIE worked with its partners across Indian Affairs to 
directly provide specific guidance that addressed the requests of the 
tribe and needs of the local communities. We did this collectively to 
protect our students, educators, staff and communities during the 
quickly changing COVID-19 environment.
    As part of the site closure work in the spring, BIE used its 
emergency management (EM) team and its dedicated roles and 
responsibilities to ensure support to schools and that any mitigation 
needs were addressed. Utilizing the BIE chain of command, the EM team 
and support staff from BIE's School Operations Division provided 
dedicated support to schools and is prepared to continue such support 
in the fall. BIE leadership communicated specific points of contact for 
the field to improve BIE support to schools, such as providing 
additional personal protective equipment or mitigation services for a 
possible case of COVID-19.
Funding to Support BIE Schools
    In addition to the work described, Congress appropriated 
approximately $69 million in the Coronavirus Aid, Relief, and Economic 
Security Act (CARES Act) to the BIE (DOI CARES funding). Within the $69 
million, $22.9 million was identified for direct distribution to Tribal 
Colleges and Universities (TCUs) and the remaining $46.1 million was 
distributed to BIE schools in accordance with a comprehensive spending 
plan. The BIE was also separately apportioned approximately $153.75 
million from the Department of Education's Education Stabilization Fund 
(ED CARES funding).
    As BIE-funded schools prepare to safely reopen across the country, 
DOI CARES funding has targeted immediate student needs related to 
mental health and safety, staff training, and information technology 
(IT) investments. The identified goals of the $69 million in DOI CARES 
funding are distinct but complimentary to the $153.75 million in ED 
CARES funding.
    Specifically, the DOI CARES funding equips individual schools with 
the necessary resources to provide customized solutions to locality-
specific reopening challenges. For example, in locations where a school 
has been affected by COVID-19 related deaths, the DOI CARES funding 
will equip school leaders with the ability to provide returning 
students critical mental health support through contract services. In 
contrast, based on the acceptable use of funds, the ED CARES funding 
has been designated to provide schools the ability to plan for and 
address mid-to-long-term challenges in providing continuation of 
instruction, such as gaps in IT infrastructure.
    Because each BIE-funded school faces unique COVID-19 related 
challenges, and pursuant to current ED guidelines for ED CARES funding, 
specific percentages of expenditure in each of the categories outlined 
below will vary by school location. Providing schools with this 
flexibility to match funding to the immediate reopening needs of each 
school is critical in ensuring schools expedite a return to normal 
operations.
    After jointly conducting tribal listening sessions with the 
Department of Education, BIE developed an allocation plan for the ED 
CARES funds. As per the allocation plan, funds have been distributed to 
the local level. Specifically, this allocation plan provided 
$107,625,000 directly to BIE funded K-12 schools and dormitories, 
$30,750,000 to TCUs, and BIE retained ten percent or $15,375,000 for 
system-wide allocations to help the immediate needs of field staff and 
BIE-funded school officials.
    The system-wide allocations include:

  <bullet> $5 million to upgrade five schools to 100Mbps Internet 
        speed. The five schools identified for this funding are the 
        remaining BIE-funded schools on the Education Native American 
        Network that do not currently possess the Federal 
        Communications Commission's recommended 100Mbps speed. Any 
        unspent funds will be used to procure hotspots and other IT 
        infrastructure to enhance students' access to broadband;

  <bullet> $8 million for direct mental and behavioral health support 
        for BIE-funded schools; and

  <bullet> $2.3 million to address unforeseen health and safety 
        challenges over the course of the 2020-2021 school year.

2020-2021 School Year Reopening Planning
    As BIE supports school site reopening, we will utilize the 
protocols and processes implemented from lessons learned in the spring 
to ensure timely and effective services to schools this fall. BIE 
leadership has also instituted a School Reopening Task Force (Task 
Force) comprised of members from BIE's Associate Deputy Directors 
divisions, Division for Performance and Accountability, and is led by 
the Chief Academic Office. The Task Force is working through the 
consultation process this summer to inform stakeholders and gather 
recommendations for reopening and will work with schools to help them 
develop individual school reopening plans to prepare for the 2020-2021 
school year.
    Through BIE school reopening consultations held on July 9, 10, and 
14, 2020, with tribal leaders and education stakeholders, BIE is 
actively working with Indian Country to garner input to strengthen 
formal guidance for assisting schools as they work to reopen safely.
    Further, BIE is partnering with states with high Native populations 
through our ED-funded comprehensive center to exchange best practices 
for school reopening. BIE's reopen guidance also utilizes guidelines 
from the Centers for Disease Control and Prevention to provide high-
level recommendations to our schools while highlighting the continued 
need for our schools to coordinate and consult with their local Indian 
tribes and communities they serve, public health officials, and the 
states in which they are located prior to reopening.
Trauma and Student Mental Health Needs
    BIE is dedicated to ensuring that returning students and staff are 
supported during these difficult times. The mission of the BIE 
prioritizes the creation of positive, safe, and culturally relevant 
learning environments where students gain the knowledge, skills, and 
behaviors necessary for physical, mental, and emotional well-being. Due 
to the importance of our students' mental health needs, BIE established 
a goal under its five-year Strategic Direction that specifically 
focuses on the areas of wellness, behavioral health, and physical 
health and safety for all students in bureau-funded schools. This goal 
includes several action items recommended through tribal consultation 
that specifically focuses on bolstering trauma-informed teaching 
practices, curricula, and professional development.
    Additionally, at the onset of the COVID-19 pandemic, BIE worked 
quickly to provide professional development opportunities for our 
diverse staff across the country. Through a partnership with the 
National Indian Education Association, BIE staff collaborated on a 
webinar series designed for teachers, residential staff, and school 
administrators that focused on the principles of self-care and 
wellness. The course also recognized the impacts of trauma and stress 
and offered participants skills in learning how to use various tools 
and coping strategies.
    Further, BIE has certified more than 300 staff members in Youth 
Mental Health First Aid (YMHFA) to improve local support. YMHFA is an 
eight hour public education program that introduces participants to the 
unique risk factors and warning signs of mental health problems in 
adolescents, builds understanding of the importance of early 
intervention, and teaches individuals how to help an adolescent in 
crisis or experiencing a mental health challenge. YMHFA uses role-
playing and simulations to demonstrate how to assess a mental health 
crisis; select interventions and provide initial help; and connect 
young people to professional, peer, social, and self-help care.
IT Infrastructure
    One innovative approach BIE is taking to increase Internet access 
is through a pilot program to turn school buses into mobile hot spots 
for our students and communities' needs. At the direction of the 
Assistant Secretary for Indian Affairs, BIE identified the 25 longest 
bus routes for initial installation under a pilot program. During this 
unique time, leadership anticipates parking the Wi-Fi enabled buses 
within tribal housing communities to serve as hotspots that can improve 
localized Internet access for students and families. This project is 
scalable, and BIE hopes to expand the pilot to improve Wi-Fi 
accessibility for more students and tribal communities in the future.
    Finally, DOI and ED CARES funding spend plans have been requested 
from Tribally controlled schools by July 31 to assist with ensuring the 
effective use of funds locally. Schools will submit individual spend 
plans in the BIE Native Star System, which is a BIE school's document 
repository system. This process will allow the BIE School Operations 
Division to monitor CARES Act funding expenditures at the school level 
to ensure schools have the funds they need to effectively support their 
students. The current situation means that just like public schools, 
BIE faces the ever-changing reality that learning will likely rotate 
between on-site and distance learning models if COVID-19 spikes 
develop. So, BIE is working collectively with our schools to maximize 
purchasing power in government contracts to ensure they have the IT 
equipment necessary to help their students achieve academically during 
this unprecedented time.
Conclusion
    Chairman Hoeven, Vice Chairman Udall, and Members of the Committee, 
thank you again for the invitation to appear today. As you can imagine, 
COVID-19 infection and recovery rates change daily for BIE schools, 
which span 23 states. We are doing everything possible to ensure a safe 
return to schools for our students and staff. It is BIE's firm belief 
that students succeed when at school. Students learn and grow while 
attending school during in-person academic instruction. BIE is also 
better able to ensure student academic services and enrichment occurs, 
when students are present at school. Student safety, wellbeing and 
social-emotional support is provided daily by dedicated teachers and 
staff. Any further delay in resuming classroom instruction widens the 
academic achievement gap and further widens the already disparate gaps 
BIE Native American and Alaska Native students already face. I look 
forward to answering your questions and the continued partnership in 
improving services to Indian students as we plan for the 2020-2021 
school year. As always, thank you for your continued support of our 
students and schools.

    The Chairman. Thank you, Director Dearman.
    We will proceed now with questions. Tell me, how are you 
going to make sure that you reopen schools safely, both in 
terms of the coordination you are doing with health care 
professionals in that regard, and then also, do you intend to 
mix in using distance learning as well?
    Mr. Dearman. Thank you, Chairman. As you stated earlier, we 
have schools in 23 States and 64 reservations. One thing that 
we did hear during our consultation is one size doesn't fit 
all. In designing our reopening plan, we really feel like it is 
important to listen to our stakeholders and our tribal leaders. 
That is what we are currently doing right now through 
consultation.
    Today is the final day of taking comments, that will end 
tonight. Then we will really start incorporating and evaluating 
the comments that we receive.
    But as I stated in my testimony, our schools and our staff 
are already working on their individual reopening plans, based 
on local resources available. If it is health agencies, tribal 
health agencies, Indian Health Services, we are bringing them 
to the table to assist in really developing safe reopening 
school plans.
    What we will do, once we have all the consultation comments 
broken down, is we will actually produce our guidance out, our 
official guidance out to where the schools can actually amend 
anything that really applies to them, as we have heard through 
our stakeholders and our tribal leaders. There are many aspects 
that we are really considering in reopening schools, from 
transportation, if students are at high risk, if their families 
are in fear of bringing the students back, we have to have the 
ability to offer remote learning. Our schools are really 
focused on that.
    In March, when we started having phone calls with school 
leaders, we asked them to really create a list of IT needs, 
because of the pandemic, so we could service our students 
remotely. As you know, with the funding that we received, we 
really appreciate the support of the Committee, it has really 
enabled a lot of our schools to go out and do what I call an IT 
refresh to address and enhance our ability to educate our 
students remotely.
    So we will have a combination, depending on the location, 
and working with local resources in how we deliver our 
education services.
    The Chairman. Over $220 million was appropriated to the BIE 
in the CARES Act. What guidelines and protocols are in place to 
ensure the schools spend that money responsibly? According to 
your testimony, BIE has held multiple consultations on the 
expenditure. So give me an update on status of those 
consultations, how those dollars are being expended, and the 
protocols you have in place to make sure it is done in the best 
manner.
    Mr. Dearman. Thank you, Senator. We actually started having 
webinars and trainings. Looking at the Department of 
Education's guidance and their 12 criteria that they allow the 
expenditures from the CARES Act funding, we really wanted to 
support and not give mixed messages. So we also, with our 
direct appropriations of the $69 million, followed that same 
guidance.
    We started having webinars, we started having 
teleconferences with our schools to answer any of the questions 
that they may have. We have also assembled teams for monitoring 
to make sure that our schools will be monitoring their CARES 
expenditures. We have set up accounting codes so we can 
actually track the CARES Act expenditures. So when we are 
required to report, we will have the expenditures from the 
schools with the CARES Act funding.
    As far as responsibility, we are going to make sure, and we 
are working with the Department of Ed, we are working with our 
schools, we have been working really closely with our schools 
in coordinating and collecting their spend plans. So there are 
actually some big spend plans that are due this week. They are 
addressing their individual needs, working with our education 
resource centers.
    So we want to make sure we continue to monitor and work 
closely with our schools to make sure the expenditures are 
being accounted for, and going to what their intent is.
    The Chairman. You also talked about efforts at using school 
buses as mobile IT pilot projects. Can you describe that?
    Mr. Dearman. Yes. This is a priority of the Secretary, to 
look at some unique ways of getting connectivity out in our 
communities. We have identified the 25 longest bus routes, and 
we have equipped, in working with the schools, with mobile hot 
spots on the buses. We have five that have been installed to 
date. I just received an email before the hearing that we 
actually have another bus in Arizona that is ready to go.
    What we are going to be able to do is actually support the 
students on their long bus routes to make sure they have 
connectivity. If they have homework, whatever, they will have 
access to do that. But also, we can actually take the school 
buses into communities to provide connectivity for community 
members. It is a pilot project, and right now, we have 19 
school sites identified for this. It is based on the 25 longest 
bus routes.
    The Chairman. Vice Chairman Udall.
    Senator Udall. Thank you, Mr. Chairman.
    I have seen several concerning news reports that suggest 
that confusion about BIE campus closure policies caused a 
number of Bureau schools on the Navajo reservation to remain 
open for weeks after the BIE sent its March 14th school closure 
letter. These schools then experienced COVID-19 related 
outbreaks, and potentially even deaths.
    Can you confirm how many BIE students and staff are known 
to have contracted or died from COVID-19?
    Mr. Dearman. Thank you, Senator, for the question.
    I ask that I can take that question back to the Department 
and respond in writing, working with the Department. That is a 
very sensitive situation. I want to maintain the privacy of our 
families and respond in writing, please.
    Senator Udall. I would add to that, then, if you are going 
to take it back, could you describe the circumstances 
surrounding those deaths, and could you confirm whether any BIE 
students or staff were infected with COVID-19 on school 
campuses? Do you have any reason to believe that the failure to 
close BIE campuses may have contributed to community spread of 
COVID-19 on the Navajo Nation? Do you think this failure led to 
any COVID-19 related deaths on Navajo? And can you provide any 
more information about the investigation or can you confirm 
that OSHA has opened an investigation related to BIE COVID-19 
staff deaths?
    Mr. Dearman. Yes, OSHA is conducting an investigation. Vice 
Chairman, when that happened, the schools on the reservation 
actually closed on Friday, and we started closing on the 
following Monday. Because we worked on the approval and 
received approval on Saturday, I don't have the exact dates, 
because we received approval on Saturday, we really felt like 
we need to make sure the parents were notified and had, on 
Monday morning, with staff.
    So we brought everyone in to start the closure process in 
our schools, in our BIE-operated schools on the Navajo 
Reservation on that Monday. I don't really know where the 
accusations are coming that we continued to have staff and 
schools operating weeks after. It wasn't the situation. There 
were some of our schools that were on spring break that Monday, 
or Friday. And so they may have come back the next Monday to 
start the closure, the shut-down procedures, and make sure 
everything was settled in and ready to go to start providing 
education services remotely.
    But we did work along, and our messages has been and will 
continue to be that we are working with our tribes. When we 
found out that the Navajo Nation was shutting down, and we 
evaluated the situation, we immediately started working on our 
shut-down process as well. I have actually had conversations 
with President Nez, a couple of times, regarding the shut-down 
and the support, just letting him know, keeping him updated, so 
that our BIE-operated schools can coordinate with their 
tribally controlled schools on the reservation.
    Senator Udall. And you are going to take the question back 
and give me a specific answer?
    Mr. Dearman. We will give you specific answers, yes, sir. 
We will give you the answers as far as the cases with that, and 
the deaths that have occurred across our system.
    Senator Udall. I will await your answers. I will be frank 
with you; I was sickened to read these articles and see such 
damning evidence that BIE missteps endangered Navajo 
communities and may have resulted in the deaths of staff. I am 
looking forward to your responses, and the Department's 
responses.
    It has been 115 days since I asked BIE to provide on its 
schools' distance learning status, and 52 days since I sent 
Secretaries Bernhardt and DeVos a letter requesting that same 
information. Putting aside the Bureau's failure to respond, 
which is unacceptable, I am deeply concerned that its apparent 
lack of situation awareness of what is going on with its 
students and schools will put Indian Country even farther 
behind for the 2020 and 2021 school year. After all, how can 
BIE, tribes and Congress set a path to move forward when we 
have no idea where we are starting from?
    For the record, Mr. Dearman, has the Bureau collected any 
information on which BIE schools and TCUs are able to offer 
distance learning to their students? If so, what percentage of 
these schools are able to offer online instruction, instruction 
by mail, or no remote learning?
    Mr. Dearman. Thank you, Vice Chairman. We have started 
collecting the data. We have five schools that are currently 
not at what we want to have all of our schools, the level, at, 
and that is 100 megabits per second. We have five schools. And 
in the Department of Ed funding that we received, the CARES Act 
funding, we actually set aside $5 million to make sure we got 
those five schools up to the 100 megabits per second. So the 
rest of our schools have the ability to service our students 
remotely.
    However, the issue isn't the ability of our schools, it is 
the ability of our parents and students to have connectivity in 
their remote locations. One thing that the Assistant Secretary 
has charged us to do is, he has put together a work group, 
Assistant Secretary Sweeney, and she is having us all work 
together to really be creative and identify parts of the 
reservation that have no connectivity by using geospatial 
analysis, and working with BLM, Bureau of Land Management, and 
the Bureau of Indian Affairs, in identifying the spots in 
reservations that do not have connectivity.
    We have talked, had several meetings on this. We have 
really started pulling together, looking at our learning 
platforms throughout our system, looking at the types of 
cellular service in the locations for the hot spots. We are 
pulling together across Indian Affairs to address this unique 
situation that we are in right now. We are collecting the data 
that has been requested. When the data is complete, we would 
definitely be willing to share with the Committee.
    Senator Udall. Mr. Dearman, the NIEA estimates 20 percent 
of BIE schools offer no distance learning. Which is it?
    Mr. Dearman. I am sorry?
    Senator Udall. Which is it? Is this the 20 percent? Are 
they accurate in saying this? Or is it what you answered 
earlier?
    Mr. Dearman. Again, all of our schools, except three, 
offered educational services during the shutdown. Which one 
that was, Senator, Vice, Chairman, it was mixed forums. Some 
might have been remote and some might have been sending home 
packages. We had some that were actually delivering homework to 
areas like we were the lunches, the lunch programs, during the 
shutdown. So it really varies. It varied on how we delivered 
the education services across our schools during the shutdown.
    I do want to say, it did catch a lot of us by surprise, as 
it did all the school systems. As I have stated in my 
testimony, we are learning from the spring, and readjusting for 
the fall.
    Senator Udall. On this point, there are a number of other 
questions, I am over here, but that I would submit for the 
record, to get information from you on this and sort out these 
differences between what NIEA is saying and what you are 
saying.
    Thank you, Mr. Chairman.
    The Chairman. All right, we will turn to Senator Cortez 
Masto, remotely.

           STATEMENT OF HON. CATHERINE CORTEZ MASTO, 
                    U.S. SENATOR FROM NEVADA

    Senator Cortez Masto. Thank you.
    Mr. Dearman, thank you so much for appearing today. There 
are two schools, BIE schools that we have in Nevada, the 
Duckwater Elementary and Pyramid Lake High School. With respect 
to the Duckwater Tribe, I have been talking with them. I know 
they are working hard to meet all the safety recommendations 
coming from the Federal Government.
    But they are very concerned about top-down requirements 
that don't account for local conditions when thinking about 
reopening their schools. The tribe is planning to use a hybrid 
system of online and in-person. But if infection rates 
increase, they want the flexibility to transition.
    So let me ask you this. Is BIE planning to address these 
issues in a way that provides tribes with the flexibility they 
are going to need?
    Mr. Dearman. Thank you, Senator. Duckwater is actually one 
of the five schools that we are working with to get upgraded to 
the 100 megabits per second. Yes, that was heard loud and clear 
in consultation and our phone calls with our school leaders. 
They don't want people from Washington, D.C. or the BIE telling 
them how to run their schools. They want local control.
    Senator, what we are putting together, the document that we 
are collecting all the comments from tribal leaders will be 
strong guidance that goes out to our schools, where they can 
actually take the guidance and the elements that are 
incorporated into our reopening plan, and actually implement 
that, pull from that for their local decisions that they need 
to make. They will have local control to make local decisions. 
Pyramid Lake and Duckwater being tribally controlled, we will 
definitely be on standby if there is any assistance they need 
that we can assist them with.
    Senator Cortez Masto. So, Mr. Dearman, when can they expect 
the guidance? I noticed today was the final day to receive 
comments. You talked about then putting out official guidance. 
My concern is some of the schools are actually starting to open 
in another five days or so. So when can they expect this 
official guidance?
    Mr. Dearman. That is a question we have been getting quite 
often. I think I really need to explain the process. When we 
shut down, we wanted to make sure that none of our schools, 
including Duckwater or Pyramid Lake, were impacting in a 
negative way. So we immediately went to work to make sure that 
we had waivers in place, and we were working with the Assistant 
Secretary to make sure that we could close out the school year 
efficiently and effectively without punishing our schools. So 
that is what we had done.
    When we got through that process, then we really had to 
start focusing on the funding and then the reopening plans. So 
what we have done is, when we go to consultation, Senator, it 
normally requires 30 days' notice in the Federal Register. We 
were able to work to get that cut down to 15, because of the 
urgency that we are up against.
    Today is the last day that they have to submit comments, 
and we will immediately go to work. We are anticipating having 
the guidance ready for review the first week of August for our 
leadership. So we are anticipating some time the beginning of 
August to get that guidance out to our schools.
    One thing that we have done, and tribally controlled has 
the option of following, is we have been working with the 
Assistant Secretary to move back our start dates with our 53 
BIE operated schools, to give us a little bit more flexibility 
and also work with tribal leaders in the areas where we have an 
uptick or when we have the pandemic, the virus, that is really 
impacting the reservations.
    Senator Cortez Masto. Thank you. I know my time is up. I 
have other questions for you that I am going to submit for the 
record.
    But the other thing that I really want to stress is 
broadband and connectivity. You just identified, I already know 
it, that at these schools, particularly in the rural areas, 
there is no connectivity. So we are looking for innovative ways 
that we can bring that connectivity to these two schools.
    I know Pyramid Lake Paiute Tribe is actually in urgent need 
of building a cell tower, as school starts, to help them. They 
are looking at using Indian Community Development Block Grant 
funds for this. So I hope you would keep an open mind and work 
with us in helping us figure out how do we fund it and bring 
the connectivity to our Indian communities across the Country, 
particularly in Nevada, as well. Because I know they are 
challenged.
    Thank you. I know my time is up. Thank you, Mr. Dearman.
    The Chairman. Thank you, Senator Cortez Masto.
    Vice Chairman, did you have additional questions for the 
Director?
    Senator Udall. If you do an additional round, I will. But 
otherwise, I wouldn't.
    The Chairman. No, I don't have any more questions.
    Senator Udall. I am going to submit questions for the 
record.
    The Chairman. All right, Director Dearman, thank you for 
being here, and thank you for your testimony. We appreciate it 
very much.
    At this time, we will pause and turn to our second panel. 
Our second panel , both of our witnesses will be testifying 
virtually. First, we will hear from Ms. Marita Hinds, President 
of the National Indian Education Association, Washington, D.C. 
Then we will hear from Mr. David Yarlott, Jr., Board Member, 
American Indian Higher Education Consortium, from Alexandria, 
Virginia, also virtually.
    With that, Ms. Hinds, are you ready to proceed?

STATEMENT OF MARITA HINDS, PRESIDENT, NATIONAL INDIAN EDUCATION 
                          ASSOCIATION

    Ms. Hinds. Thank you, Chairman Hoeven, Vice Chairman Udall, 
and members of the Committee, thank you for this opportunity to 
provide testimony on behalf of the National Indian Education 
Association.
    My name is Marita Hinda, and I am from Tesuque Pueblo, and 
currently President of the Board for the National Indian 
Education Association. I am the school administrator at our 
tribal grant school, Te Tsu Geh Oweenge School.
    NIEA is the most inclusive national organization advocating 
on the frontlines of Native education. Our work centers on 
advancing cultural-based educational opportunities for the 
650,000 American Indians, Alaska Natives and Native Hawaiian 
students in classrooms today. Native education is a bipartisan 
effort rooted in the Federal trust responsibility to tribal 
nations and their citizens. Each of you on this Committee has a 
critical role in upholding that responsibility, particularly 
during a public health emergency like our communities, and the 
Nation as a whole, are facing today.
    For centuries, Native students, schools, and communities 
have long been underfunded and under-resourced. Compounded 
inequities came clearly into focus as our schools and tribal 
nations made difficult decisions to protect the lives and 
wellbeing of our students, all with limited guidance, funding, 
resources, and infrastructure necessary to provide continued 
educational services in Native communities. Now, our schools 
must develop strategies to provide educational services that 
prioritize the health and safety of students and staff. My own 
community is currently developing our plan to reopen classrooms 
this fall.
    Tesuque is a small pueblo, with a population of 
approximately 560 members. Our student body is a total of 54 
students. Because of our small enrollment and our proximity 
within the pueblo, we are planning to open our school with in-
school instruction. This plan is based on the New Mexico Public 
Education Department Re-Entry Guidance, The BIE School 
Reopening Plan and information from other schools within tribal 
communities.
    Safety is our main priority, with social distancing, 
classroom isolation, and cleaning and sanitizing throughout the 
day. We know the importance of having the students in the 
classroom, and will be taking extreme measures to make sure the 
students and staff are safely protected.
    As each of our schools across the Country make difficult 
decisions to ensure the health and well-being of staff, NIEA 
urges Congress to consider the full scope of need for education 
programs in the BIE. In March, NIEA appreciated the work of 
many on this Committee to pass emergency education funding for 
Bureau-funded schools under the CARES Act. However, many 
schools received only enough funding to purchase basic personal 
protection equipment for staff and students.
    Congress must continue to invest in programs and services 
critical for our schools to function. Increased cleaning and 
sanitization, greater demand on outdated transportation and 
facilities, professional development and training for staff, 
student mental health services, and the need to plan for 
possible spread in schools all place greater stress on 
stretched budgets for BIE schools.
    This means allocating $1.5 billion in direct funding to 
Bureau-funded schools to meet the health and safety and 
educational needs of students due to the impacts of COVID-19. 
This also means ensuring a strong and modern infrastructure, 
capable of providing equity in education during a global 
pandemic.
    Bureau-funded schools have long experienced a backlog of 
critical maintenance and infrastructure. By the end of school 
year 2019, the maintenance backlog in Bureau-funded schools had 
ballooned to over $727 million.
    Communication issues have continued to complicate 
distribution of funding from the CARES Act, which was 
authorized by Congress on March 27th, 2020. Despite the 
allocation of emergency education funding for Bureau-funded 
schools, our schools did not report receipt of funding until 
three months after the Congressional approval.
    Continued funding shortfalls in high quality construction, 
repair, and maintenance, leave Bureau-funded schools without 
the necessary infrastructure to provide high quality education 
for all students this fall. From outdated heating and air 
systems to cramped classrooms, to spotty internet and old 
wiring, significant investment in our school's infrastructure 
is critical to protect our students and provide educational 
services.
    NIEA asks that Congress address support to our students by 
providing $1 billion in emergency funding to address unfunded 
repairs and renovations at Bureau-funded schools. NIEA urges 
Congress to uphold the Federal trust responsibility for all 
Native students by fully funding key programs that support 
effective and culturally appropriate COVID-19 response in 
Native schools and classrooms. The 48,000 students in Bureau-
funded schools across the Nation deserve nothing less.
    Thank you for this opportunity to speak on behalf of the 
National Indian Education Association. Please go to our 
website, www.niea.org, for further information as well. Thank 
you.
    [The prepared statement of Ms. Hinds follows:]

    Prepared Statement of Marita Hinds, President, National Indian 
                         Education Association
Introduction
    On behalf of the National Indian Education Association (NIEA), I 
respectfully submit the following written testimony for to the Senate 
Committee on Indian Affairs Hearing titled ``Preparing to Head Back to 
Class: Addressing How to Safely Reopen Bureau of Indian Education 
Schools.''
    NIEA is the most inclusive national organization advocating on the 
frontlines of Native education. Our work centers on advancing culture-
based educational opportunities for American Indians, Alaska Natives, 
and Native Hawaiians. Each day, our organization equips tribal leaders, 
educators, and advocates to prepare the over 650,000 Native students 
across the nation for success in the classroom and beyond.
    Native education is a bipartisan effort rooted in the federal trust 
responsibility to tribal nations and their citizens. Each of you on 
this Committee has a critical role in upholding that responsibility, 
particularly during a public health emergency like our communities, and 
the nation as a whole, are facing today.
National Landscape
    For centuries, Native students, schools, and communities have long 
been under-funded and under-resourced. Compounded inequities came 
clearly into focus as our schools and tribal nations made difficult 
decisions to protect the lives and wellbeing of our students--all with 
limited guidance, funding, resources, and infrastructure necessary 
provide continued educational services in Native communities.
    In March and April, many Bureau-funded schools prioritized the 
well-being of their students by closing school facilities. Now, in the 
face of limited funding, resources, and infrastructure, our schools 
must develop strategies to provide education services this fall that 
prioritize the health and safety of students and staff.
    Between July 9-14, 2020, the Bureau of Indian Education (BIE) 
engaged in three tribal consultation sessions regarding a draft School 
Reopening Plan. Though this draft represents a first step toward 
ensuring continued education services and safe reopening of school 
facilities, tribal leaders remain very concerned. As our tribes and 
schools make decisions to safely reopen in the coming months, our 
tribes and schools must have access to the resources and guidance 
necessary to ensure that our students have access to safe and healthy 
classrooms where they can thrive.
Recommendations
    As the Committee considers critical resources and funding necessary 
to reopen our schools equitably this fall, NIEA urges Congress to 
consider the full scope of need for education programs.
Emergency COVID-19 Funding

  <bullet> Provide $1.5 billion in direct funding to Bureau-funded 
        schools, as defined in 25 U.S.C.  2021(3) to meet the health, 
        safety, and educational needs of students due to the impacts of 
        COVID-19.

          Despite the allocation of emergency education funding for 
        Bureau-funded schools under the CARES Act on March 27, 2020, 
        our schools did not report receipt of funding until three 
        months after congressional approval. Today, many schools report 
        that emergency funds proved only enough to cover basic personal 
        protective equipment for staff and students.

          Congress must invest in programs and services critical for 
        our schools to function. Increased cleaning and sanitization, 
        greater demand on outdated transportation and facilities, and 
        the need to plan for possible spread in schools all place 
        greater stress on stretched budgets for BIE schools.

  <bullet> Provide $1 billion in emergency funding to address the 
        backlog of unfunded repairs and renovations at Bureau-funded 
        schools, as defined in 25 U.S.C.  2021(3).

          Strong and modern infrastructure is essential to equity in 
        education, particularly during a global pandemic. Bureau-funded 
        schools have long experienced a backlog of critical maintenance 
        and infrastructure. In 2016, the Office of the Inspector 
        General at the Department of Interior found that it would cost 
        $430 million to address immediate facilities repairs in the 
        BIE. In addition, that report estimated over $1.3 billion in 
        overall need for education construction at BIE schools. By the 
        end of FY 2019, the maintenance backlog in Bureau-funded 
        schools had ballooned to over $727 million.

          Continued funding shortfalls in high-quality construction, 
        repair, and maintenance leave Bureau-funded schools without the 
        necessary infrastructure to provide high-quality education for 
        all students this fall. From outdated heating and air systems 
        to cramped classrooms, many of our schools wonder if it is safe 
        to bring students into the building during a public health 
        emergency.

          For schools that may be unable to physically reopen, outdated 
        technology infrastructure and lack of Internet access at home 
        slows implementation of virtual education options. Even schools 
        with computer equipment on-site often struggle to provide 
        digital learning due to limited community broadband access at 
        home. Just last year, the Center for Indian Country Development 
        at the Federal Reserve Bank of Minneapolis reported that only 
        61 percent of households on tribal lands have broadband access. 
        In comparison, 70 percent of residents in the typical county 
        that overlaps a reservation have access to broadband in the 
        home.

Education Services

  <bullet> Ensure equitable education services for our most vulnerable 
        students, including students with disabilities.

          Equity in educational opportunity has become even more 
        paramount during the COVID-19 pandemic. However, Bureau-funded 
        schools located in rural communities with limited virtual 
        learning infrastructure face unique challenges providing 
        equitable education services for students that are unable to 
        attend physical classes due to concerns regarding their 
        physical well-being and health. NIEA recommends that the BIE 
        expand specific guidance for continued education services 
        aligned with that of the Department of Education, which school 
        and tribal leaders may use to develop learning programs and 
        services that address the unique needs of Native students.

Tribal Communication and Coordination

  <bullet> Ensure that school facilities reopen in accordance with 
        tribal, local, and state guidance.

          Several Bureau-funded schools experienced spread of COVID-19 
        among essential staff and in the wider community when BIE 
        Education Program Administrators (EPAs) failed to comply with 
        tribal and state orders to close schools. This is unacceptable. 
        Our educators and staff must not be forced to choose between 
        their lives and their livelihood. The wellbeing and safety of 
        all, including those who at the frontlines of learning and 
        opportunity in our communities, must be protected.

  <bullet> Provide clear and consistent communication to all schools, 
        particularly those located within the same tribal jurisdiction 
        and region.

          Inconsistent communication, timelines, and information 
        provided throughout the BIE system has resulted in confusion 
        and diverse interpretations of rules among schools, tribes, and 
        communities. From use of funding to school closures, schools 
        must not face conflicting messages when the lives of our 
        students, educators, and community members are at risk. Tribal 
        and school leaders must have access to timely and consistent 
        information that addresses the scope of need for our students, 
        educators, and schools. NIEA urges the BIE to coordinate 
        communication to ensure the safety and well-being of our 
        students, educators, staff, and communities.

Professional Development and Training

  <bullet> Develop high-quality guidance and professional development 
        on distance education and hybrid education models.

          As COVID-19 continues to disproportionately impact and spread 
        in Native communities, tribal nations face the possibility of 
        future shutdowns to ensure the safety and wellbeing of students 
        and community members. The Bureau must provide resources to 
        support distance and hybrid learning models for schools that 
        cannot reopen physical facilities due continued community 
        spread. High-quality, updated resources must address critical 
        information and funding for effective culture-based virtual 
        curriculum, professional development, education technology, IT 
        support, and ensuring continued education services for special 
        education, English language learners, and Native language 
        programs.

  <bullet> Ensure high-quality trauma training for staff and student 
        mental health services in schools.

          Trauma related to the impact of COVID-19 in our families in 
        communities follows Native students into the classroom. 
        Educators and staff must have culturally responsive training to 
        support trauma-informed education services. Though NIEA 
        appreciates the emphasis on mental health in the BIE reopening 
        plan, additional details and guidance for school implementation 
        is crucial to ensure effective and consistent implementation 
        for our most vulnerable learners.

Conclusion
    Healthy education systems are key to thriving tribal nations and 
communities, particularly during a global pandemic. Education and 
Native students cannot be forgotten. NIEA urges Congress to uphold the 
federal trust responsibility for all Native students by fully funding 
key programs that support effective and culturally appropriate COVID-19 
response in Native schools and classrooms. The 48,000 students in 
Bureau-funded schools across this nation deserve nothing less.

    The Chairman. Thank you, Ms. Hinds.
    Now we will turn to Mr. Yarlott.

  STATEMENT OF DR. DAVID YARLOTT, JR., CHAIR, AMERICAN INDIAN 
             HIGHER EDUCATION CONSORTIUM BOARD OF 
         DIRECTORS; PRESIDENT, LITTLE BIG HORN COLLEGE

    Dr. Yarlott. Good afternoon, Chairman Hoeven, Vice Chairman 
Udall, and members of the Committee. My name is Baluxx 
Xiassash, Outstanding Singer. I am a member of the Uuwuutasshe 
Clan and a child of the Uuwuutasshe Clan of the Aps alooke or 
Crow Indians.
    I am Dr. David Yarlott, Jr. Since 2002, I have served as 
the President of Little Big Horn College in Crow Agency, 
Montana. I am also Chair of the AIHEC board of directors.
    From my college and the 36 other tribal colleges and 
universities, thank you for inviting me to testify today. This 
afternoon, I will discuss some challenges due to the COVID-19 
pandemic, our response to the challenges and some 
recommendations as we work on the phase four Coronavirus relief 
package.
    TCUs serve over 160,000 American Indians, Alaska Natives, 
and other community members each year through academic and 
community-based programs at 75 sites in 16 States. We provide 
these services in an environment far more challenging than any 
other institution of higher education. Our budgets are very 
lean, because our operating funding, which comes from the 
Federal Government is inadequate. The only other minority-
serving institution to receive operating support, Howard 
University, receives $30,000 per student each year. Most TCUs 
receive only about $7,300 per Indian student. This is a 
difference of nearly $23,000 per student.
    We educate students in great need. More than half of our 
students are first generation. One-third are single with 
children. Many live in multi-generational homes, and 86 percent 
receive Pell Grants. Our students, faculty and staff face 
serious health and safety risks, including food and housing 
insecurity, homelessness, and a great risk of COVID-19.
    In terms of IT infrastructure, TCUs have the slowest and 
most expensive internet service in the institutions of higher 
education in the Country. Ilisagvik College, for example, pays 
$250,000 per year for internet speeds of 6 megabits per second. 
Sixteen TCUS have internet speeds of 100 megabits per second or 
less. Four are below megabits per second.
    All TCUs face challenges delivering class remotely to 
students across the reservations because many of our students 
lack reliable and affordable internet at home. Despite these 
challenges, TCUs are committed to serving our tribal nations.
    Most TCUs have not closed at any point during the pandemic. 
Those that ceased operations did so only for a few weeks. We 
went from zero online classes to 90 or 100 percent online in 
two weeks this spring. Now, 400 TCU faculty are participating 
in a six-week course to become better distance education 
instructors. We established computer loan programs for students 
and faculty. We set up internet wi-fi hot spots so our students 
wouldn't have to sit in TCU parking lots for access to 
internet, but a lot of them did that and still do.
    TCUs with dorms kept them open for a limited extent to help 
students and families and others who had nowhere to go. We 
worked with our tribes to provide meals, testing sites, and 
more
    Forty-five TCUs have announced plans for the fall. 
Seventeen will open with a hybrid class schedule; some classes 
online, and others in person with physical distance. Seven will 
open with online classes only. One will open with face to face 
classes only.
    To do this, we need support in the next COVID-19 relief 
bill. TCUs request $65 million in an Interior BIA account to 
address the projected economic year 2020-2021 losses. We are 
freezing cuts in tribal funding, increasing tuition write-offs 
and many TCUs are cutting tuition to help students.
    We need permanent help with IT infrastructure. We ask that 
a $24 million TCU IT fund be established within the USDA Rural 
Utilities Service program. All COVID-19 relief programs for 
Native higher education should include all TCUs.
    We ask that any bill use the term tribal colleges and 
universities as defining the higher education [indiscernible]. 
The BIE share of the education stabilization funds should be 
increased to 1 percent. Most important, Congress should direct 
Interior to equitably fund TCUs and K through 12 based on the 
percentage of students at our schools. As evidenced with the 
CARES Act, Congress does not include this language. DOI may not 
fund TCUs or will underfund us.
    Of the $153 million in the BIE Education Stabilization Fund 
under the CARES Act, TCUs received only $30 million, although 
we comprise 40 percent of BIE students. In BIE's listening 
sessions on the funding, tribes vigorously advocated for 
equitable funding.
    My written testimony includes a few other requests to help 
TCUs open safely this fall. Please consider this carefully.
    And again, thank you for the opportunity to testify today. 
Thank you.
    [The prepared statement of Dr. Yarlott follows:]

 Prepared Statement of Dr. David Yarlott, Jr., Chair, American Indian 
 Higher Education Consortium Board of Directors; President, Little Big 
                              Horn College
    Chairman Hoeven, Vice-Chairman Udall, and members of the Committee, 
on behalf of my institution, Little Big Horn College in Crow Agency, 
Montana and the 36 other Tribal Colleges and Universities (TCUs) that 
collectively are the American Indian Higher Education Consortium 
(AIHEC), thank you for inviting me to testify on the efforts of TCUs to 
safely remain open in the midst of the COVID-19 pandemic.
    My name is Baluxx Xiassash--Outstanding Singer. I am a member of 
the Uuwuutasshe Clan and a child of the Uuwuutasshe Clan of the Aps 
alooke or Crow Indians. The Crow reservation is located in what is now 
south-central Montana and contains about 3000 square miles--a territory 
larger than the state of Rhode Island. In the early 1980s, my tribe 
established Little Big Horn College, forging a new tradition in 
education to grow an Aps alooke workforce that would rebuild and 
sustain our tribal families, communities, and lands. The goal was to 
establish a lasting tradition of advanced training and higher 
education, for a good path into the future for the Crow People. I am 
proud to say that I am a product of my tribe's commitment to higher 
education: I attended Little Big Horn College as a student (returning 
years later to earn a degree); I served on the faculty of Little Big 
Horn College; and after earning advanced degrees, I became an 
administrator at the college. Since 2002, I have had the honor of 
serving as president of Little Big Horn College, where it is my 
responsibility to keep building a path into the future for my people.
    This morning, I will address three topics: The Tribal College 
Movement in general--where TCUs were in early March 2020; challenges 
faced by TCUs due to the COVID-19 pandemic and our response to those 
challenges; and finally, eight specific recommendations, including 
important TCU funding and cyberinfrastructure needs, for your 
consideration as you work to ensure that Indian Country is equitably 
included in the national effort to reopen our schools and colleges this 
fall and recover from this unprecedented pandemic.
Background: The Tribal College Movement
    All but three of the 19 members of the Senate Committee on Indian 
Affairs have at least one Tribal College in his or her state; and 
collectively, 28 of the nation's 37 TCUs are represented by Committee 
Members, so I will not go into detail about the TCUs--you know us well. 
I will simply say that American Indian and Alaska Native tribally 
chartered colleges and universities are geographically isolated and 
most are severely under-resourced, particularly when compared to other 
institutions of higher education. Yet, our institutions are 
extraordinarily effective and proven catalysts for revitalization and 
change. Thirty-five of the 37 TCUs are fully accredited (two are 
emerging/developing institutions), and we serve more than 160,000 
American Indians, Alaska Natives, and other rural community members 
each year through academic and community-based programs at more than 75 
sites in 16 states.
    The first Tribal College, like all that followed, was established 
for two reasons:

        1. The near complete failure of the U.S. higher education 
        system to address the needs of--or even include--American 
        Indians; and

        2. The need to preserve our culture, our language, our lands, 
        our sovereignty--our past and our future.

    The goal: to build our own education system founded on our ways of 
knowing, traditional knowledge, and spirituality, and designed 
specifically to serve and strengthen our Tribes, communities, and 
lands. Today, all TCUs offer certificates and associate degrees; 16 
offer bachelor's degree programs; and five offer master's degree 
programs. Our programs range from liberal arts--including Tribal 
governance and business, to career and technical programing, including 
welding, carpentry, automotive, nursing, teaching, and allied health. 
The 35 accredited TCUs are ``1994 Land-grant institutions.''
    In early March 2020, the TCUs were busy working to produce an 
American Indian/Alaska Native workforce that includes Head Start 
teachers, elementary and secondary school teachers, agriculture and 
land management specialists, engineers, computer programmers, nurses, 
and more. We were doing this work in an environment far more 
challenging than that of any other institution of higher education in 
the U.S.:

        1. Inadequate Operating Support: On average, TCUs are the 
        poorest institutions of higher education in the nation. Even in 
        the best of times, we operate with very lean budgets because 
        our operating funding, which comes from the federal government, 
        is grossly inadequate to meet our needs. Most TCUs received 
        $7,385 per Indian Student for academic year 2019-2020, 
        significantly below the authorized level of $8,000 per Indian 
        student. The only other minority serving institution to receive 
        its operating support from the federal government, Howard 
        University, receives $30,000 per student from the Department of 
        Education each year (because it is in the District of Columbia 
        on land that is formerly federal trust land).

        TCUs receive little or no financial support from their tribal 
        governments because the tribal governments that have chartered 
        TCUs are not among the handful of wealthy gaming tribes; 
        rather, they are some of the poorest governments in the nation. 
        For those that do receive funding, it is often inconsistent and 
        dependent on annual tribal revenues. For example, 16 of the 37 
        TCUs received about $33 million in tribal support in academic 
        year 2018-19; in AY2017-18, TCUs received $31 million in tribal 
        support (AIHEC AIMS). Additionally, because they are not part 
        of state education systems, most TCUs do not receive state 
        funding. The handful of TCUs that do receive limited state 
        funding receive support only for the non-Native (``non-
        beneficiary'') students at their college.

        Although 28 TCUs have an endowment, most are extremely small. 
        Only one TCU has a somewhat large endowment: Oglala Lakota 
        College, which has worked hard to grow its endowment to $51 
        million. The other 27 TCU endowments ranging from $10,000 to 
        $14.2 million. Nationally, the median college/university 
        endowment is $65.1 million, while the median TCU endowment is 
        $2.4 million.

        Despite operating funding challenges, TCUs are committed to our 
        tribes and communities. TCUs are open door institutions, 
        serving any student who is willing to commit to a semester of 
        learning, and TCU tuition, at about $4,100 per year for a 4-
        year degree, is the most affordable in the nation. Many TCUs 
        provide books to students to keep student costs down; and 
        although 18 TCUs operate dorms and cafeterias, these are not 
        money-making enterprises, as they are at mainstream 
        institutions. Still, many TCU students cannot afford to pay 
        both tuition and room/board, even pre-pandemic. (In 2019, the 
        average TCU student unmet need was more than $10,000 per year, 
        according to U.S. Department of Education statistics.) In 
        AY2018-19, TCUs wrote off more than $4 million in unpaid 
        tuition and fees, and in AY2017-18, they wrote of nearly $3 
        million.

        2. TCU Student Demographics: Financial and Academic Challenges: 
        More than half of our students are first-generation college 
        students. One-third are single with children, and the vast 
        majority live in multi-generational homes with deep family and 
        community ties and responsibilities. Overwhelmingly, our 
        students are poor. In fact, 86 percent of TCU students receive 
        Pell grants. And with an average annual income of less than 
        $20,000 per year, our students live well below the US poverty 
        line.

        Most of our students come to us unprepared for post-secondary 
        education. Our students generally fall into one of two 
        categories: those who began post-secondary education at a 
        mainstream institution but were unable to complete their 
        program; and those who dropped out of high school and came to 
        the TCUs to earn a GED. (On some reservations, more than 50 
        percent of all Native students drop out of high school, most in 
        their senior year.) To both groups, the TCU represents hope: an 
        opportunity to rebuild damaged self-esteem, find their 
        identity, and eventually earn a credential or degree at an 
        affordable price. Many require developmental education prior to 
        beginning an academic or career/technical program. About 60 
        percent of TCUs test into developmental math, and more than 45 
        percent require developmental reading. To address these 
        challenges to academic success, most TCUs now offer dual credit 
        or early college programs for local high school students, and 
        some are developing high school programing right at the TCUs, 
        such as Salish Kootenai College's STEM academy. At SKC STEM 
        Academy, high school juniors and seniors spend mornings at 
        their secondary school and afternoons at SKC, where they engage 
        in experiential math and science classes and labs.

        3. TCU Student Demographics: Food and Housing Insecurities: In 
        addition to being low-income, first generation, and 
        academically under-prepared for college, our students--and 
        faculty--face serious health and safety risks. A recent survey 
        published by the American Indian College Fund and the Hope 
        Center for College, Community and Justice (Temple University) 
        revealed that of the students surveyed, TCU students suffered 
        food and housing insecurity and homelessness at much higher 
        rates than other college students. Nearly 30 percent of the TCU 
        student respondents reported being homeless at some point in 
        the prior 12 months (compared to the national student average 
        of 17 percent); almost 62 percent were food insecure in the 
        prior 30 days (compared to the national student average of 39 
        percent); and 69 percent of the TCU student respondents said 
        they faced housing insecurity in the prior 12 months (compared 
        to the national student average of 46 percent). Yet despite 
        these challenges, TCU students reported greater academic 
        success compared to similarly students at other colleges/
        universities.

    More than 85 percent of TCU students and nearly 50 percent of all 
TCU faculty are enrolled members in federal recognized Indian tribes--a 
group, according to the federal Indian Health Service (IHS) that has 
``long experienced lower health status when compared with other 
Americans.'' Per capita, more American Indians and Alaska Natives 
suffer from diabetes than any other group in the U.S. American Indians 
and Alaska Natives born today have a life expectancy that is 5.5 years 
less than the U.S. all races population (73.0 years vs. 78.5 years), 
and we die at higher rates than other Americans, including from chronic 
liver disease and cirrhosis, diabetes mellitus, unintended injuries, 
assault/homicide, suicide, and chronic lower respiratory disease (IHS).

        According to the IHS, lower life expectancy and the 
        disproportionate disease burden exist perhaps because of 
        inadequate education, disproportionate poverty, discrimination 
        in the delivery of health services, and cultural differences. 
        These are broad quality of life issues rooted in economic 
        adversity and poor social conditions.

        Internet Connectivity and Cyberinfrastructure: Through a 2017 
        grant from the National Science Foundation, AIHEC and the TCUs 
        have been conducting an in-depth study of the 
        cyberinfrastructure capacity and needs of TCUs. The goal is to 
        connect our institutions to the regional education and research 
        Internet networks that crisscross this country and enable 
        faculty and students at U.S.-based IHEs to learn, work, and 
        conduct research with one another. Currently, only 10 TCUs are 
        connected to these vital networks. The NSF-funded study 
        revealed startling information about Indian Country and TCUs: 
        TCUs have the slowest Internet speeds of all IHEs in the 
        country and, on average, pay more than any other group for 
        Internet connectivity. One TCU has the most expensive, and 
        slowest, Internet speed of any IHE in the country. (I?isagvik 
        College, which pays $250,000 per year for Internet speeds of 6 
        Mbps.) In 2015--the most recent comparable year, the national 
        average Internet speeds at colleges and universities were 513 
        Mbps for 2-year institutions and 3.5 Gbps for 4-year 
        institutions. Yet, more than one-third of all TCUs (16) have 
        Internet speeds at 100 Mbps or less--four are at or below 50 
        Mbps. Average TCU Internet speed is 375 Mbps. Making the 
        problem even more challenging, TCU IT equipment refresh rate is 
        8.3 years, while 3-5 years is standard practice. We understand 
        that the BIE has contracted with a private, for-profit entity 
        regarding Internet connectivity at BIE-funded/supported 
        schools. One goal purportedly is to ensure that all BIE K-12 
        schools have Internet access of at least 100 Mbps. 
        Unfortunately, the BIE has not included TCUs in this effort, 
        even though nearly all TCUs provide dual credit to local/tribal 
        high school students and 31 TCUs serve as community libraries 
        (with computer labs), which are used by local pre-K-12 students 
        and their families.

        If TCUs are to deliver high quality online/distance learning to 
        American Indians and Alaska Natives in times of emergency, 
        these gaps must be addressed as rapidly as possible. However, 
        other challenges also must be addressed: even those TCUs with 
        adequate Internet access on campus face problems delivering 
        classes remotely to students across their reservations. At some 
        TCUs, more than half of the students lack consistent, 
        reliable--and affordable--Internet access at home and many 
        students lack the equipment necessary to engage in coursework 
        and homework (tablets, computers, laptops). President Richard 
        Littlebear, Chief Dull Knife College, describes the problem: 
        ``I can use my cell phone to make a call from Hawaii to Lame 
        Deer, but I can't use my cell phone to call from Lame Deer to 
        Busby--there is no cellular service and without cellular, there 
        is no Internet.'' (Oahu, Hawaii is 3,300 miles from the 
        Northern Cheyenne reservation in Montana. The distance between 
        the reservation towns of Lame Deer and Busby is 16 miles.) 
        These issues require a permanent and equitable solution 
        strategy.

        Finally, when examining TCU IT infrastructure, it is important 
        to keep in mind that 32 TCUs are in very remote areas. For 
        these TCUs, there is a lack of choice (competition) of Internet 
        service providers, which drives up costs significant. This is 
        the primary reason TCUs pay high than average rates for their 
        Internet service, particularly given the low speed.

TCU Response to the COVID-19 Pandemic & Plans for AY 2020-21
    Despite facing serious financial, Internet connectivity and 
equipment, and faculty professional development challenges that are far 
worse than other schools and colleges in the U.S. and having student 
(and faculty) populations at greater health risk than other groups in 
the U.S., the nation's 37 TCUs have worked diligently to respond to the 
COVID-19 pandemic in a comprehensive manner, addressing both the needs 
of students and community. As place-based, community-anchoring 
institutions, we had no choice but to continue to serve our tribal 
nations to the best of our ability. Most TCUs have not closed at any 
point during the pandemic, and those that ceased operations did so only 
for a few weeks. We are working and learning together to ensure we can 
continue offering high quality, culturally relevant, and job-focused 
educational opportunities to our students and communities--always 
mindful of the need to put first the health and safety of TCU students, 
their families, and community members. This is important for some 
critical reasons: many TCU students live in multi-generational homes; 
and as discussed above, American Indians and Alaska Natives suffer the 
lowest health status of any group of U.S. citizens, including the 
highest rates of diabetes--a critical adverse factor associated with 
high COVID-19 mortality rates. In addition, for many of our Tribes, our 
Tribal language keepers are well over 70 years old, another adverse 
COVID-19 factor. If Native language keepers are lost to this pandemic, 
whole tribal cultures would be devastated. Therefore, TCUs focused on 
building our online teaching capacity and delivering courses to 
students who could access the Internet from remote access points in 
their community (or in the community nearest to them) or who could 
finish courses using ``old fashioned'' distance education.
    President Sandra Boham, Salish Kootenai College, described the 
situation at her college: ``As a TCU, Salish Kootenai College is 
working together with our K-12 schools to educate all Indian students 
in our region-- to meet their educational, technology, and mental 
health needs. SKC adopted a shelter in place policy on March 16, 2020. 
We kept family and student housing open to the extent possible because 
we could not disrupt families during a pandemic. Many of our students 
are parents, and we quickly realized that they were forced to become 
fulltime teachers at the same time as college students (because SKC's 
required course work did not go away). We did our best to help meet 
their needs.
    We established a computer loan program for students, faculty and 
staff who did not have one. Some students had a home computer, but it 
was being shared by multiple family members as children needed to use 
the home computer for their schoolwork. Access to an additional 
computer in the household was significant in reducing the stress of 
competing technology needs between K-12 and college student family 
members. Assistance was provided for food so that students could 
continue to feed their families without having to drop out of school to 
find work. Activity kits were provided to families to assist in keeping 
preschool age children busy so that parents could attend to classwork. 
Faculty and students in our Teacher Education Program offered parents 
assistance with tips for teaching. Faculty flexed their course 
schedules to find times that worked for students to meet virtually 
outside of normal college operating hours. IT technicians provided 
technical assistance for student's personal laptops and phones to help 
them with technology problems and improved access to Internet services 
on campus.
    Every year, SKC provides dual credit programs to nine high schools, 
we have a 40-year partnership with our tribal BIE contract school 
(grades 8-12); we educate teachers for our local systems; we prepare 
Head Start teachers and program directors; we train health providers--
medical people who work throughout the Flathead Valley. We provide 
childcare to students and local families, which we were unable to keep 
open for those in need due to the pandemic. All these programs and 
services were adversely impacted--they changed overnight. SKC went from 
zero to 100 percent online classes almost overnight. We quickly 
provided professional development to our faculty, and at the same time 
we were learning, we reached out to the local K-12 teachers to help 
them get up to speed. At SKC, 67 percent of our students are in high 
risk categories, so we are taking additional steps to help keep our 
students mentally and physically well--we extended our spring and 
summer terms to allow for physically distant hands-on learning and we 
are providing holistic support for students and instructors. Even in 
the face of these monumental challenges, we must keep going--we are 
teaching the people who do everything on our reservation: education 
providers, government workers, service providers, health care 
professionals, and more. We must do this well, and we cannot do it well 
if we are not well funded. There are faces behind every dollar we 
spend, and for them, we need to stay whole.''
    All TCUs have incurred significant costs as a result of the COVID-
19 pandemic, including securing and cleaning campuses; relocating 
students off campus and providing shelter in place housing for students 
who had no home to go to; beginning the first phase of online courses; 
purchasing equipment for students and providing emergency aid; and 
paying salaries and administrative leave for staff who would otherwise 
be unemployed. TCUs also faced (and continue to face) challenges in 
addressing: (a) Career and technical courses, which often cannot be 
converted to online courses; (b) professional development and course 
redesign for faculty; (c) equipment and infrastructure for online 
delivery of courses; and (d) lack of Internet access in students' 
homes. Coronavirus Aid, Relief, & Economic Security (CARES) Act funding 
is helping TCUs address some of these critical issues, but as 
challenges continue to mount, more funding is needed.
    Like SKC, virtually all TCUs moved to online or distance 
instruction to finish the spring 2020 semester, and many offered online 
courses for the summer. To transition to effective, community-based 
online or physically distant course delivery, TCUs required:

        (a) Reliable high-speed Internet access--campus technology and 
        Internet speed upgrades and accessible community-based 
        connectivity;

        (b) Instructional delivery and access systems/devices (course/
        communication tools);

        (c) Faculty professional development to create and maintain 
        quality, engaging online programming; and

        (d) Student computer/online literacy training for adoption of 
        successful online learning strategies.

    TCUs are using funding appropriated under the Coronavirus Aid, 
Relief, & Economic Security (CARES) Act to address these needs, to the 
(somewhat limited) extent that we are able. This summer, AIHEC 
organized an intensive 6-week online training program for 390 TCU 
faculty in effective online teaching with a special component to help 
ensure that whether online or in person, TCU instruction is conducted 
from a Native world view.
    TCU governing boards, presidents, faculty, and staff are embracing 
the challenges we face as an opportunity for expanding postsecondary 
education to more American Indians/Alaska Natives, including the 67 
percent of tribal members living in urban areas. In addition to 
providing instruction online, TCUs are developing new ways of providing 
critically needed social, academic, and mental health support to 
students and communities.
    Early in the pandemic, President Charles M. Roessel of Dine College 
noted that his TCU is ``serving a Nation that has been knocked down.'' 
Dine College, like all TCUs, quickly transitioned many courses online; 
began providing students with emergency financial aid, both from 
funding received under the CARES Act and from the American Indian 
College Fund. Dine College and Navajo Technical University (NTU) staff 
risked their own health to keep college doors open. These two colleges, 
like other TCUs, kept some dormitories open for students who could not 
safely live at home, or who had no home to go to. Their cafeteria staff 
provided free meals to first responders as well as students who would 
sit for hours in their cars in the colleges' parking lot, accessing the 
Internet wirelessly to complete their coursework.
    NTU, located in Crownpoint, New Mexico, developed online fliers and 
significantly expanded its online messaging to students through 
Facebook and other forms of social media, providing tips, 
encouragement, and other outreach to keep students engaged as they 
practiced physical distancing. The college worked with the Navajo 
Nation and IT providers to establish wireless Internet hot spots on the 
eastern part of the Nation and converted a fleet of college vans into 
the ``Homework Express,'' delivering printed assignments to students 
who lacked Internet access, and picking up completed assignments. NTU 
quickly transitioned its summer enrichment ``camps'' to virtual camps, 
including a 6-week STEM skill building program for dual credit (high 
school) students and a robotics academy, offered with support from 
NASA, to Native youth.
    At Bay Mills Community College in Michigan's Upper Peninsula, 
faculty and staff developed online tutoring opportunities for students, 
organized ``BMCC Cyber Social Hours'' for students to talk with one 
another, and launched a multi-week ``Mental Health Power Hour, `` 
covering topics such as stress, youth issues, and adapting to change.
    Faculty and staff at Cankdeska Cikana Community College on the 
Spirit Lake Dakota reservation in North Dakota ``are meeting students 
in parking lots, at the grocery store, at the gas station, to give them 
a laptop or a card to get phone minutes because they're trying to do 
the college homework on a TracFone,'' says President Cynthia Lindquist. 
All TCUs have used significant amount of CARES Act funding to loan or 
provide students with laptops, as most students do not have laptops of 
their own.
    Like most other TCUs, Cankdeska Cikana Community College is also 
continuing to serve the broader tribal communities. Cankdeska 
administrators worked with their tribe to provide COVID-19 testing in 
the college parking lot, while even the president herself delivers 
meals, food, and supplies tribal members in need. BMCC, Cankdeska, and 
NTU served their tribes and region in other ways as well: early in the 
pandemic, these colleges used their 3-D printers--normally reserved for 
advanced manufacturing instruction--to produce hundreds of face shields 
for tribal and regional health care providers and first responders. 
Later, as local governments began easing stay-at-home restrictions, the 
colleges provided face shields to local business to help keep their 
workers safe. BMCC also made valves for ventilators used in local 
hospitals.
    Overall, the TCU students who have been able to access the Internet 
and who have received laptops or smart phones from their college appear 
to be adapting to this ``new normal''; however, none of the TCUs have 
been able to reach all of our students. Some--primarily those living on 
the vast areas of our reservations without Internet access--are lost to 
us. TCUs have not been able to locate all of the students who were 
enrolled and attending classes in spring 2020 prior to the pandemic, 
and we do not yet know the extent to which enrollment will decline in 
the fall, even if we offer classes onsite and in person. The challenges 
will be greater for those TCUs that must offer courses entirely online. 
The lack of widespread and affordable Internet access in Indian Country 
remains a barrier that TCUs alone cannot address. At Tohono O'odham 
Community College (TOCC), which serves students throughout the rural 
2.8 million-acre
    Tohono O'odham Nation--roughly the size of Connecticut--the 
percentage of courses completed with passing grades dropped from 64 
percent to 52 percent in spring 2020. (TOCC transitioned from over 90 
percent face-to-face course delivery to 100 percent online on March 
30.) TOCC faculty say that a 52 percent pass rate was better than 
expected but ``it cannot be the standard going forward,'' says TOCC 
President Paul Robertson.
    TOCC students, like many TCU students, face double challenges: 
finding Internet access, and being able to pay for it if they can find 
it. For many students (as with TCUs), the cost is prohibitively high. 
President Robertson notes that ``some TOCC students were thwarted by 
lack of access to the broadband they needed to complete their 
coursework. Others could not afford the cost of an Internet 
subscription from the sole supplier on the Tohono O'odham Nation, nor 
could they access Internet from parking lots in front of fast-food 
establishments and Starbucks, something some urban students have been 
reduced to. The Shell gas station in Sells has a few ``wi-fi parking'' 
spots and some students have driven long distances to take advantage of 
that. That is not a solution. It should not be happening.'' But if the 
choice is paying a monthly Internet connection fee or feeding your 
family, what are TOCC students to do?
    Academic Year 2020-21: Although all TCUs moved to online or 
distance education programs for spring 2020, the landscape looks much 
different for Fall 2020 (AY2020-21). Of the 37 TCUs, 25 have announced 
decisions:

  <bullet> 17 TCUs plan to open with a hybrid class schedule, with some 
        classes online and others in person with physical distancing 
        precautions.

  <bullet> 7 TCUs will open with online classes only, although some of 
        these colleges will open their dorms in a limited capacity.

  <bullet> 1 TCU will open with in-person, onsite classes only, with no 
        distance education courses at this point. Chief Dull Knife 
        College (Lame Deer, MT) made this decision due to the small 
        class sizes, ability to physically distance, and unreliable 
        Internet access on the reservation, which makes online courses 
        virtually impossible.

    Dine College, with faculty whose average age is 65, is typical of 
the 17 TCUs that plan to offer a mix of online and in-person classes in 
the fall: Dine College hopes to implement a comprehensive $6.4 million 
technology upgrade as rapidly as possible, given funding and 
infrastructure limitations. Just this month (July 2020), the 
foundational phase was implemented with the expansion of the college's 
Internet speed from 280 Mbps to 2000 Mbps on its main campus. This is 
the fastest Internet speed (at the main campus) among TCUs. However, 
Dine College pays significantly for that access. Its Internet costs are 
$31,000 per month, the second highest among TCUs (only I?isagvik 
College pays more). Prior to the recent upgrade, Dine College cobbled 
together its Internet access from three different providers. The 
college also has implemented a laptop loaner program and Wi-Fi device 
program, including paid Cellular One service for students who do not 
have readily available Internet access. These changes are key to the 
college's ability to offer 350 or more courses completely online this 
fall, with about 100 classes being offered face-to-face in 31 different 
classrooms. To assist students, the college already has distributed 
more than $600,000 in emergency funding to students and recently 
announced a 50 percent tuition cut for fall classes. Finally, Dine 
College is working to establish micro-campuses (small learning centers 
with physically distant onsite instruction capacity) at key locations 
across the Navajo Nation, such as shopping centers and government 
buildings close to students' homes. Students can learn and work 
together in a safe environment at the micro-centers, and to the extent 
possible, K-12 students might also be able to use the facilities.
Recommendations to Address Challenges TCUs Face in Opening for AY 2020-
        21
    Although it is difficult to predict how deeply TCUs, their 
students, and their communities will suffer due to the COVID-19 
pandemic, experts predict that the pandemic will peak in the western 
U.S., where most TCUs are located, much later than other parts of the 
country. As TCUs begin to plan for an uncertain future (2020-2021 
academic year), we turned to data on past economic, academic, and 
community patterns to help inform the following recommendations on 
specific and known TCU needs, which will help TCUs operate safely in 
AY2020-21:

        1. $65 million in the Interior-Bureau of Indian Education 
        account to help Tribal College and Universities address 
        projected AY-2020-21 losses: Tribal support & tuition cuts; 
        increased tuition write-offs.

        Most TCUs start their fiscal year on July 1. As TCUs plan for 
        FY2021 (Academic Year 2020-21), we face:

    <bullet> A significant drop in support from chartering Tribal 
        governments due tribal enterprise revenue losses, the need for 
        tribes to divert scarce resources to address COVID-19 emergency 
        public health issues, community safety net expenses, and the 
        ongoing and staggering loss of casino revenue. As mentioned 
        earlier: Tribal TCU Payments: 2018-19: $33,331,078; 2017-18: 
        $31,049,542 (AIHEC AIMS).

    <bullet> Projected declines in enrollment as students drop out or 
        fail to return because they lack Internet connectivity and 
        cannot participate in online classes or because they need to 
        increase work hours (if jobs are available) to help support 
        families in economic crisis. Total TCU Tuition Received: 2018-
        19: $23,188,584 (AIHEC AIMS); 2017-18: $25,503,359 (IPEDS).

    <bullet> Inability of most TCUs to conduct summer classes, due to 
        the need for intensive faculty professional development in 
        online learning, advising, and assessment to maintain regional 
        accreditation and the need to complete extensive course and 
        management redesign for the fall semester because of increased 
        online teaching. Summer Tuition and Fees: 2018-19: $1,692,995 
        (AIHEC AIMS)

    <bullet> Growing financial challenges facing students who persist 
        and try to complete their degree programs, resulting in TCUs 
        having to write off more tuition payments than in previous 
        years. Annual TCU Tuition Write-off: 2018-19: $4,000,595; 2017-
        18: $2,906,650 (AIHEC AIMS).

    <bullet> American Council on Education (ACE) ``Survey of COVID-19 
        Costs of Reopening for Institutions of Higher Education'': In 
        June 2020, ACE conducted a national survey on the costs of 
        reopening campuses and/or delivering classes online in academic 
        year 2020-21. (This survey was like one conducted by AIHEC 
        early in the pandemic.) ACE surveyed IHEs in eight areas: PPE; 
        disinfectant level cleaning, including supplies; testing; new 
        housing; lost revenue and increased revenue costs: housing, 
        staffing, IT; isolation/quarantine; social distancing 
        (retrofitting classrooms and other campus spaces); and other. 
        U.S. Department of Education IPEDS data was to calculate a per 
        student cost. Using only institutions that could estimate costs 
        by category (4-year, larger institutions), ACE averaged the 
        costs and then divided by total IPEDS student enrollment of the 
        surveyed IHEs. The additional cost per student is estimated at 
        $2,400.

        For TCUs, this figure is higher because: (a) IPEDS does not 
        accurately reflect enrollment at TCUs using FTE, because of the 
        high number of part-time students at TCUs; (b) historic 
        inequities in funding and geographic location (e.g. lower IT 
        access, capacity, and equipment; cost of providing services in 
        rural areas the size of some states versus in compact urban 
        areas); (c) student demographics (As stated earlier, TCUs serve 
        students at higher risk that mainstream institutions--84 
        percent receive Pell benefits, as opposed to 31 percent 
        nationally); and (d) the ACE survey did not include mental/
        behavioral health counseling; faculty professional development/
        training (for online instruction); and certain sunk costs that 
        are incurred regardless of size with lower student numbers to 
        spread costs across. To account for these factors, increasing 
        the cost by one quarter for TCU students, the overall TCU need 
        is estimated at $66,000,000.

        2. $24 million in existing USDA-Rural Utilities Service Program 
        funds for a permanent Rural TCU-IT Fund.

    To address a key part of the digital divide/homework gap and long 
term IT capacity building in Indian Country, Congress should establish 
a permanent TCU Fund under the USDA-Rural Utilities Service, in either 
the Community Connect fund or the Reconnect program. Approximately $24 
million in TCU set-aside funds is needed for this program, based on 
AIHEC's extensive and data informed analysis. (See Appendix A.) *
---------------------------------------------------------------------------
    * The information referred to has been retained in the Committee 
files.

        If TCUs had adequate funding currently for IT infrastructure 
        support, they would have put in place many of the community-
        based mobile hot spots needed to address the ``homework gap'' 
        on many reservations. It is important to note that any program 
        to provide tax credits to existing Internet Service Providers 
        for providing free Internet access to students provides little 
        or no help in Indian Country because the IT infrastructure does 
        not exist: 68 percent of those on rural Tribal lands lack 
        access to fixed broadband, according to a 2016 FCC Broadband 
        Progress Report. And for TCUs that do have broadband access, 
        Internet capacity is inadequate. More than one-third of all 
        TCUs (16) have Internet speeds at 100 Mbps or less--four are 
        below 50 Mbps, compared to national averages of 513 Mbps for 2-
---------------------------------------------------------------------------
        year institutions and 3.5 Gbps for 4-year institutions.

        Establishing specific funds for Land-grant institutions is not 
        unusual. In the last reauthorization of the Farm Bill, for 
        example, Congress established a permanent $40 million 
        scholarship fund for 1890 Land-grant institutions (Historically 
        Black Colleges and Universities), and Congress annually funds a 
        modest TCU communities facilities construction set-aside 
        program within the USDA-Rural Development Community Facilities 
        program.

        3. $500 million in the Interior-BIE account for a TCU Deferred 
        Maintenance & Rehabilitation Fund, as authorized under the 
        Tribally Controlled Colleges and Universities Assistance Act.

        AIHEC recently conducted a survey of 22 TCUs, which revealed a 
        list of chronic facilities-related needs, including student and 
        faculty housing, classrooms, libraries, and laboratories.

        The 22 TCUs have an estimated total need of $332.5 million in 
        deferred maintenance and rehabilitation and need $558 million 
        to fully implement existing master plans. Extrapolating this to 
        all 37 TCUs, the total current need is: Deferred Maintenance/
        Rehabilitation: $500 million; Completion of Master Plans: $837 
        million. (See Appendix B.)

        4. Inclusion of all ``Tribal Colleges and Universities'': To 
        ensure that all TCUs are included in new federal programs and 
        opportunities, the term ``tribal colleges and universities'', 
        defined in section 316(b) of the Higher Education Act of 1965 
        (20 U.S.C. 1059c), should be used:

        TRIBAL COLLEGE OR UNIVERSITY.--The term ``Tribal College or 
        University'' means an institution that--(A) qualifies for 
        funding under the Tribally Controlled Colleges and Universities 
        Assistance Act of 1978 (25 U.S.C. 1801 et seq.) or the Navajo 
        Community College Act (25 U.S.C. 640a note); or (B) is cited in 
        section 532 of the Equity in Educational Land-Grant Status Act 
        of 1994 (7 U.S.C. 301 note). (20 U.S.C. 1059c)

        There are five different types of TCUs:

    <bullet> 29 Tribally chartered colleges funded under Titles I and 
        II of the Tribally Controlled Colleges and Universities 
        Assistance Act (TCU Act);

    <bullet> 2 Tribally controlled career and technical colleges funded 
        under the Carl Perkins Act and more recently, Title V of the 
        TCU Act;

    <bullet> 2 BIE-operated colleges;

    <bullet> 1 Congressionally chartered AI/AN college; and

    <bullet> 1 State/Tribal hybrid college chartered by the state of 
        Minnesota and one Indian tribe.

        5. Ensure Inclusion of TCUs in BIE/DOI Education Planning--
        Address BIE/DOI Neglect of TCUs in Long-term Planning: Within 
        the various levels of the U.S. education system, ``the Bureau 
        of Indian Education (BIE) serves as the principal government 
        agency in upholding the United States' educational obligations 
        to Indian tribes and their eligible Indian Students.'' (DOI FY 
        2021 Budget Justification, p. 7) Beginning with early childhood 
        education, the BIE provides funding for the BIE Family and 
        Child Education Program (FACE) which serves children and adults 
        through home-based and preschool-based services. For K-12 
        education, the BIE often serves in a ``State Education Agency 
        (SEA)'' capacity, providing direct support and funding to 183 
        elementary and secondary schools and dormitories. For 
        postsecondary education, the BIE administers grants to operate 
        29 TCUs, two tribal technical colleges, two federally operated 
        postsecondary institutions, and several postsecondary 
        scholarship programs. However, the TCUs, which serve about 
        44,000 students each year in academic program, or about 40 
        percent of all students in schools funded by the BIE, often are 
        neglected or discounted by the Department of the Interior and 
        BIE in planning efforts, new initiatives, annual budgeting 
        processes, and most recently, in the BIE share of COVID-19 
        Emergency Stabilization Fund support.

        For example, the annual BIE budget justification to Congress 
        routinely includes funding requests for construction, 
        facilities, improvements, repairs, and employee housing for BIE 
        elementary and secondary schools but consistently fails to 
        include any request for TCU facilities, maintenance, or 
        renovations. Congress and BIE have the ability to provide 
        desperately needed infrastructure funding to TCUs through 
        section 113 of the Tribally Controlled Colleges and 
        Universities Assistance Act, which authorizes a TCU facilities 
        report and construction program (25 U.S.C. 1813). However, the 
        program has never been funded in the 42 years since its 
        enactment.

        Additionally, the BIE FY 2021 budget justification includes a 
        $5 million request for broadband expansion to ``support high-
        cost special fiber construction efforts and increased monthly 
        circuit costs for remaining schools without access'' (emphasis 
        added) and upgrades ``to recommended educational standards [100 
        mbps] to provide appropriate Internet connectivity to keep pace 
        with public schools'' (DOI FY 2021 Budget Justification, p.5). 
        As stated earlier, TCUs also experience similar barriers in 
        obtaining affordable and consistent Internet connectivity, but 
        the BIE has yet to include a TCU broadband funding requests in 
        its annual budget justification. (Note: BIE K-12 elementary and 
        secondary schools participate in the federal E-rate program, 
        which provides discounted Internet service and equipment up to 
        90 percent. TCUs are not eligible to participate in this 
        program.)

        Similarly, on July 8, 2020, during a BIE virtual listening 
        session regarding the distribution of $153.75 million in CARES 
        Act Education Stabilization Fund support, the BIE announced its 
        plan to reserve 10 percent of the $153.75 million fund for 
        Bureau-directed activities (approximately $15.375 million), $5 
        million of which would be used to support ``five BIE K-12 
        schools to bring them up to a minimum Internet service of 100 
        Mbps'' (apparently disregarding the fact that four TCUs also 
        have Internet speeds below 50 Mbps) and $8 million to support 
        mental/behavioral health at BIE K-12 schools; $108 million 
        would be provided directly to BIE K-12 schools (for a total of 
        about $121 million), and TCUs would receive $30 million. This 
        announcement is in complete disregard to the previous 2.5 
        virtual listening sessions and submitted comments regarding the 
        distribution of BIE Education Stabilization Fund support: 
        during the listening session and in subsequent written 
        comments, the overwhelming majority of participants--and 
        virtually all Tribal leaders who spoke--requested that the 
        funding be apportioned between K-12 schools and the TCUs 
        equitably, based on the percentage of students, which would be 
        a split of roughly 60-40 percent, or $103 million for K-12 
        schools and $50 million for TCUs. While every school and 
        community is facing challenges as we work to provide services 
        supporting learning during this pandemic, we are extremely 
        disappointed in the BIE's decision to exclude TCUs from BIE-led 
        emergency support initiatives and to disregard repeated calls 
        for equity in funding. \1\
---------------------------------------------------------------------------
    \1\ The Historically Black Colleges and Universities Preservation 
Building Fund (54 U.S.C. 302101) is another example of TCU exclusion by 
DOI. Despite DOI's treaty and trust obligations and failure to support 
TCU infrastructure, DOI provides grant funding to HBCUs to document, 
preserve, and stabilize historic structures on HBCU campuses. Since 
program inception in 1988, DOI has awarded over $60 million to HBCUs to 
assist in repairing historic buildings. No similar funding has been 
provided to TCUs, even though TCUs--including Haskell Indian Nations 
University, which the BIE/DOI owns and operates--have historic 
structures on their campuses.

        While the entire BIE system has been chronically underfunded, 
        the ongoing global pandemic has intensified to the need for 
        long-term investment in IT infrastructure for TCUs and BIE K-12 
        schools. To address these issues, Congress recently passed the 
        Great American Outdoors Act (H.R. 1957) which includes funding 
        for the BIE. The forthcoming National Parks and Public Land 
        Legacy Restoration Fund includes funding for ``priority 
        deferred maintenance projects'' at Bureau of Indian Education 
        schools (5 percent of the fund). AIHEC strongly recommends that 
        DOI and BIE develop a plan to equitably include TCUs in this 
        fund and future budget requests; otherwise, TCUs will continue 
---------------------------------------------------------------------------
        to be neglected.

        6. Increase BIE Share of the Education Stabilization Fund to at 
        least 1 percent and Specify TCUs as Beneficiaries, Along with 
        Elementary and Secondary Schools: Through the CARES Act ``one 
        half of one percent'' was provided to the BIE for ``programs 
        operated and funded'' by the BIE. We recommend the following 
        clarifications for any funding under the Education 
        Stabilization Fund, established in the CARES Act:

    <bullet> Increase funding for BIE to at least 1 (one) Percent: 
        Combined with historical and chronic underfunding, students at 
        BIE schools, including TCUs, have been impacted more profoundly 
        than any other students in the country. To provide better 
        support for all students at BIE schools, including TCUs, and 
        help more schools open in the fall, additional support is need.

    <bullet> Specify BIE K-12 schools AND Tribal College and 
        Universities as funding recipients; require equitable 
        distribution between BIE K-12 schools and TCUs based on 
        students served: As evidenced with the CARES Act-BIE Education 
        Stabilization Fund, if Congress does not include direct and 
        specific language to fund the TCUs, DOI may not provide funding 
        to TCUs, or will under-fund TCUs for arbitrary reasons. Because 
        the CARES Act did not specify a distribution formula between 
        BIE K-12 schools and TCUs for the $153 million BIE Education 
        Stabilization Fund, Department of Education (ED) staff first 
        recommended that TCUs receive no funding under this fund. DOI 
        and ED then decided to conduct several tribal consultation 
        sessions about this funding, which further delayed the release 
        of funds. Three months after the enactment of the CARES Act, 
        BIE released only 20 percent of the fund to TCUs, while the 
        rest was used for BIE K-12 schools and other BIE contracts. It 
        is important to note that of the overall BIE student count, 
        TCUs serve 40.84 percent and K-12 schools serve 59.15 percent. 
        Based on this experience, we are fearful that without a 
        specific directive to include TCUs with a requirement to 
        equitably distribute funds based on the number of students 
        served, DOI and ED will exclude or reduce funding for TCUs in 
        future relief aid.

        7. Provide 10 percent for TCUs from any Department of Education 
        Minority Serving Institution (MSI) Education Stabilization 
        Fund/Emergency Education Relief Fund: Under the CARES Act, 
        Congress provided 7.5 percent of the Higher Education Emergency 
        Relief Fund for TCUs, HBCUs, HSIs, other minority-serving 
        institutions and other institutions funded under Title III, 
        Title I, and Title VII of the Higher Education Act. This 
        funding totaled approximately $1.046 billion. Congress 
        allocated this funding to each institutional category according 
        to the percentage allocated in FY 2020 appropriations. Using 
        this allocation method limited TCUs to 5 percent of the MSI 
        Fund, which resulted in $50.469 million to be split among 35 
        TCUs. While the overall funding made available to the MSI 
        community was sizeable, allocation of funding among MSI 
        categories based on FY 2020 appropriations further perpetuates 
        the inequitable funding of TCUs. TCUs need at least 10 percent 
        to support pandemic-related needs and to partially account for 
        past inequities and the growth of new TCUs over the past 10 
        years. (Chronic inequities in funding cannot be addressed using 
        formulas that helped create the inequities in the first place.)

                            CARES ACT FUNDING
------------------------------------------------------------------------
                 Total Number of                                  Total
  Institutions   Institutions or      BIE        ED Funding       CARES
                     Students       Funding                        Act
------------------------------------------------------------------------
TCUs             35 TCUs; 31,767  $69         MSI-TCU Fund:     $117.6 M
                  AI/AN Students   million     $50.47 M; 90
                                   Fund:       Percent Fund:
                                   $22.9 M;    $13.55 M; ED
                                   BIE ESF:    Total: $64.0M
                                   $30.7 M;
                                   BIE
                                   Total:
                                   $53.6 M
BIE K-12         46,000 AI/AN     $69         N/A               $167 M
                  Students         million
                                   Fund: $
                                   47 M; BIE
                                   ESF: $121
                                   M; BIE
                                   Total:
                                   $167M
HBCUs            99 HBCUs         N/A         MSI-TCU Fund:     $1.11
                                               $577.59 M; 90     Billion
                                               Percent Fund:
                                               $352.91 M; ED
                                               Total: $1.11 B
Non-Tribal       29 State/        N/A         MSI-NASNTI: $     At least
 ``Native         Private                      6.12 M; 90        $61.1M,
 Serving''        Colleges                     percent Fund:     unsure
 Colleges (10                                  $54.98 M; ED      of
 percent of                                    Total: $61.1 M    State
 self-reported                                                   ESF
 students)                                                       support
------------------------------------------------------------------------

        8. Department of Education Stabilization Fund/Education 
        Emergency Relief Fund vs. BIE Direct Supplemental: AIHEC 
        Recommends Funding from Both ED and BIE Due to Inequities: Both 
        agencies should provide funding to TCUs, as illustrated in the 
        chart above. As federal agencies, treaty and trust obligations 
        apply to both departments. Both must be held accountable in 
        their support of tribal sovereignty regarding both K-12 and 
        higher education. The federal government has neglected and 
        historically underfunded American Indian and Alaska Native 
        education, particularly higher education, and both funding 
        sources should be provided, particularly during the national 
        pandemic. While most public institutions of higher education 
        receive funding from both state and federal sources, TCUs do 
        not receive funding from states. TCUs rely on the BIE for 
        operating funding. For these reasons, we recommend that TCU 
        funding be provided through both vehicles: ED Education 
        Stabilization Fund/Education Emergency Relief Fund and BIE 
        direct support.

    Thank you for the opportunity to provide testimony today. We look 
forward to continuing to work with the Senate Committee on Indian 
Affairs in the coming weeks and months, as we strive to safely reopen 
our schools, communities, and the entire nation.

    The Chairman. Thank you to both of our witnesses.
    Dr. Yarlott, my questions are for you. How has shifting to 
the distance learning impacted the learning at tribal colleges 
and universities? What are some of the pluses and minuses?
    Dr. Yarlott. I would say there are more minuses than 
pluses. I can only speak with our experiences. I know that 
other TCUs have experienced similar, some worse, some a little 
bit better off. Shifting to online was a steep learning curve 
for our faculty. They fell back on what they were comfortable 
with, whether it was Zoom, whether it was via Facebook, 
YouTube. And we had mixed results.
    Even though we may have had those abilities on our faculty 
side, that didn't mean that we had a similar experience with 
our students. Many of our students didn't have access to 
internet, wi-fi, they tried to get to where they could connect. 
And some students just had their cell phones, which was vastly 
inadequate as far as trying to do homework. All they could do 
was communicate back and forth. In certain situations, they 
just dropped off completely.
    The Chairman. Tribal colleges and universities also provide 
important job skills to the economy. For example, in Bismarck, 
North Dakota, we have the United Tribes Technical College. They 
provide, among other things, certification in heavy equipment 
operations, automotive, culinary, those kinds of things which I 
think are extremely useful and in demand for the economy right 
now.
    We are getting a lot of feedback. Somebody may need to mute 
their microphone.
    Again, Mr. Yarlott, what jobs, where I am going with this 
is what job skills should tribal colleges and universities be 
focusing on?
    Dr. Yarlott. I think the service sector is in high demand, 
because of the needs of people. With COVID, with the shelter in 
place in a lot of places, safety concerns come up. For us, with 
the trucking business, we do have a CDL program there at Little 
Big Horn College. We know that there is going to be need for 
those truck drivers.
    So we worked it out so that half our students will be on 
campus driving, the other half will be sitting in the 
classroom, doing the instruction. We know that there is a high 
need here. So we tried to keep their programs going in that 
situation. I am pretty sure that other TCUs have done something 
similar, because they know that not only the services are going 
to be in need, but will also provide some employment for these 
students.
    The Chairman. Thank you, Mr. Yarlott. With that, I will 
turn to the Vice Chairman.
    Senator Udall. Thank you, Mr. Chairman.
    Dr. Yarlott and President Hinds, we have heard a number of 
times today about the delays and missteps related to BIE's 
release of COVID-19 funding, approval of waiver requests and 
providing distance learning and safety guidance. As you have 
noted, this is having negative impacts on the ground for school 
leaders, students, and teachers.
    Do you feel confident that all TCUs and BIE schools have 
the resources they need to safely begin instruction for the 
upcoming school year?
    Dr. Yarlott. I would say that no, we don't have adequate 
resources. Mostly for us it is internet access, the ability to 
provide to the tools to the hands of our students so they can 
access. As I had mentioned earlier, many of those students have 
cell phones, but the connectivity is an issue. Being a rural 
areas, some places don't have access at all.
    I will use myself as an example. When I go home, my cell 
phone doesn't work, because I don't have access in those areas. 
I do have a land line that I can connect to the internet, but 
when we had a grant program that came through and was putting 
in line, fiber lines, we had to provide trespass for the 
company to come in and put in the line. Many of our tribal 
members did not waive the trespass permit.
    So because of that, they don't have that fiber into their 
residences. So in many cases those students will have to come 
into some place where they do have wi-fi access.
    We have talked about hot spots. Even if we provided hot 
spots, if a student is living in a home where there is multiple 
equipment, handheld technology, they drain that internet, the 
service right away. It still becomes difficult for them to work 
on their homework.
    Senator Udall. President Hinds, do you have a response to 
that question?
    Ms. Hinds. Yes, thank you. Several Bureau-fund schools 
experienced spread of COVID-19 among essential staff and the 
wider community when BIE education program administrators 
failed to comply with tribal and State orders to close schools. 
This is unacceptable. Our educators and staff must not be 
forced to choose between their lives and their livelihood. The 
wellbeing and safety of all, including those who are on the 
front lines of giving an opportunity in our communities must be 
protected.
    Also, despite the allocations of emergency education 
funding for Bureau-funded schools under the CARES Act, our 
schools did not report receipt of funding until three months 
after Congressional approval. Today, many schools report that 
emergency funds proved only enough to cover basic personal 
protection equipment for staff and students.
    Congress must invest in programs and services critical to 
our schools to function. Increased cleaning and sanitation, 
greater demand on outdated transportation and facilities, and 
the need to plan for possible spread in schools all place 
greater stress on stretched budgets for BIE schools.
    Senator Udall. This follow-up question is also for both of 
you. Can you provide examples of how the funding delays 
impacted Native students and how it is impacting your 
preparations for the coming school year?
    Dr. Yarlott, President Hinds?
    Dr. Yarlott. Would you repeat the question?
    Senator Udall. Of course. Can you provide examples of how 
the funding delays impacted Native students and how it is 
impacting your preparations for the coming school year?
    Dr. Yarlott. I will start off by how it impacted us this 
this spring. When we had to go directly to online once we had 
the closures here in the State of Montana, having access for 
our students was tremendous. Because many of our students 
didn't know how to respond to online instruction. They relied 
on emails going back and forth. Not having the resources in 
order to provide for them.
    One of the things that also occurred was because the K 
through 12 students were also shut down, they had to be home 
with their children, which also meant that it distracted them 
as far as getting their work done. Just the ripple effect of 
all the different things that came about, having to shelter in 
home.
    The transportation systems on the reservation also shut 
down. So it is all those kinds of things that affected our 
students.
    As administrators at Little Big Horn College, we had to sit 
down and try to deal with all the different factors, knowing 
that we were trying to plan for things that are unknown, using 
information we could have from CDC and different avenues, and 
then turn around to see what resources we had on hand, without 
having access to emergency relief.
    Senator Udall. President Hinds, did you have a response to 
that last question?
    Ms. Hinds. Yes. There are definitely funding problems 
throughout Indian Country. With the funding delays negatively 
impacting our school operations, and talking to other 
communities within northern New Mexico and the southern 
Pueblos, it is definitely creating a negative impact. Because 
funding has been limited, they are using funds for PPE 
products. Of course, there is broadband and internet in tribal 
communities. Everybody is trying to prepare and get ready to 
open schools whether it is with a hybrid program, or with doing 
distance learning.
    But without more funding, that is critical to all the 
schools that need this to prepare for the school opening. We 
certainly need all the funding that we can get to safely open 
schools for our students and for our teachers in the community.
    Senator Udall. Mr. Chairman, are you going to do a second 
round?
    The Chairman. No.
    Senator Udall. Okay. I have a couple more questions.
    The Chairman. Well, Senator Cortez Masto wants to ask 
questions as well.
    Senator Udall. Oh, yes, of course.
    The Chairman. I will come back to you. Senator Cortez 
Masto.
    Senator Cortez Masto. Thank you so much.
    Just very briefly, clearly what we heard today highlights 
the challenges already existing in Indian Country. I think the 
Coronavirus pandemic has really shined a light on existing 
inequities that we see in our tribal communities, inadequate 
broadband, aging school facilities, lack of basic 
infrastructure already existed. Now we are asking them to open 
during the middle of a health care crisis, and we are not 
giving them the funding they need to already address how, with 
the existing inequities, but to keep their students safe and 
provide e-learning and so many other things that are necessary.
    I really don't have a question, because you have answered, 
and you have said over and over again that the funding needs to 
come for all of these areas we have talked about. But what I 
hear is that right now, the money that we have allocated 
through the CARES Act to address a number of these issues under 
the pandemic, you have only received it, so much so that it 
goes toward PPE and that is it.
    Is that correct, what I am hearing from both of you? That 
the money from the CARES Act, and it was delayed, and I 
strongly disagree with that degree, it should never have been 
delayed. But right now, the money that you have received has 
only gone toward PPE, is that correct? Is that what I am 
hearing, President Hinds?
    Ms. Hinds. In my own community, with our spending plan, we 
had put money toward PPE and also for laptops and instructional 
programs to help our teachers who, if we do need to go into 
distance learning, we need to have those programs, and we also 
need to have training. We need training not only for our 
parents, but also for our teachers. So that is where our funds 
have gone to.
    Senator Cortez Masto. Okay. So when you say that, are there 
additional funds that you need, obviously, to continue, not 
only what you have just talked about, but other needs to be 
able to safely reopen schools?
    Ms. Hinds. Definitely. We are buying our PPE products, but 
also our staff, they need resources to fund the programs to go 
online. We purchased a math and reading program, but that was 
it. We are going to need a lot more programs for distance 
learning. Because, knock on wood, our community has not had any 
cases of COVID-19. We are a small tribal community.
    But should we need to go to distance learning, we need the 
hot spots, we need buses or vans or mobile devices to help our 
students, not only just our students at our schools, but our 
students go to school at Santa Fe Indian School and Pojoaque 
High School. So all of this is need for the learning 
opportunities that the kids need. We have been trying to get 
those hot spots, we have been trying to get all these things. 
It is just coming up with the funds, and looking into getting 
all this into our communities.
    Senator Cortez Masto. Thank you.
    Dr. Yarlott, the funding that has come in so far for higher 
education, can you let me know what that is and what your needs 
still are?
    Dr. Yarlott. I would say that similar to what President 
Hinds said, we have purchased our PPE, we have tried prioritize 
what we can do as far as technology, in order for our students 
to be able to access technology for online learning. But first, 
we had to provide those for our faculty members also.
    We also had to continue to operate, so we then minimized 
contact on our campus. We went to a two-day work week, if you 
will; we worked two days on campus, those could work remotely, 
we set them up to work from home. So we had to support them 
also.
    The other thing that we have faced is with our students, 
even though like I mentioned before, if they had a handheld 
device, if they didn't have internet access, they would use up 
their data, which really increased their [indiscernible] cost. 
So we tried supporting them in that way, which is barely 
adequate.
    The things we are trying to do is working with our 
community partners, whether it is local schools, local high 
schools, trying to set up hot spots in those areas, so that our 
students can go into a safe location. We don't want them 
sitting out there somewhere where they are vulnerable. So we 
are trying to look at the security and safety measures along 
with that.
    So some of those things that we are trying to work on, even 
though we provide those, then we also have to consider food, 
childcare, all those kinds of things that are normal, if you 
want to consider what normal is, what they would have, now they 
are having to make an adjustment. So we are also trying to help 
in that sense.
    Having said that, when people are sheltering in place, we 
become concerned about their mental health also. What are we 
going to do for them in that sense? Are we going to be able to 
provide counseling services? In our situation and in our 
location, we have a lack of those kinds of services. Where do 
we go to provide those services to our students?
    Senator Cortez Masto. Thank you. And thank you to the 
panel, thank you both for joining us today. We so appreciate 
your comments and all of the good work that you are doing. 
Thank you, again.
    The Chairman. Thank you, Senator Cortez Masto.
    I will turn to the Vice Chairman for some additional 
questions.
    Senator Udall. Thank you, Mr. Chairman, and in light of the 
fact that the vote has gone off, I will submit questions for 
the record, which I hope the witnesses will give back to us 
promptly.
    By way of closing, it is clear to me the BIE was not 
prepared for this hearing today. I am beyond frustrated by what 
I saw here today. As I said in my opening, this is absolutely 
unacceptable. I would yield back to the Chairman.
    The Chairman. With that, I will thank our second panel, 
both President Hinds and Dr. Yarlott. I would ask that for all 
of the witnesses, that for any questions that are submitted for 
the record that they respond within the hearing record time of 
within two weeks.
    With that, we are adjourned.
    [Whereupon, at 4:51 p.m., the hearing was adjourned.]

                            A P P E N D I X

    Prepared Statement of Kevin J. Allis, CEO, National Congress of 
                            American Indians
    On behalf of the National Congress of American Indians (NCAI), 
thank you for holding this hearing and for the opportunity to submit 
this written testimony. Founded in 1944, NCAI is the oldest and largest 
representative organization serving the broad interests of tribal 
nations and communities. Tribal leaders created NCAI in 1944 in 
response to termination and assimilation policies that threatened the 
existence of American Indian and Alaska Native (AI/AN) tribal nations. 
Since then, NCAI has fought to preserve the treaty and sovereign rights 
of tribal nations, advance the government-to-government relationship, 
and remove historic structural impediments to tribal self-
determination.
    Presently, Indian Country is facing barriers in ensuring AI/AN 
students have equal access to education across our nation due to the 
underfunding of the Bureau of Indian Education, inadequate facilities, 
limited access to broadband, difficulty recruiting and retaining 
teachers, and a lack of culturally appropriate educational 
opportunities. These issues impact the quality of AI/AN education and 
will affect BIE school re-openings. To aid the Committee's work, below 
we have addressed current conditions, the impact of delayed relief 
funds, and outstanding relief needs.
COVID-19's Disparate Impact on Tribal Communities is a Result of the 
        Underfunding of the Federal Trust and Treaty Responsibility
    The COVID-19 pandemic has disproportionately impacted AI/AN 
students due to underlying education and living disparities that are a 
result of the chronic underfunding of the federal government's trust 
and treaty responsibilities. There are approximately 620,000 AI/AN 
students enrolled in public schools, both in urban and rural areas, 
while 48,000 attend BIE schools. There are 183 BIE-funded schools 
located on 63 reservations in 23 states. The most recent data shows the 
high school graduation rate for BIE students is at 67 percent compared 
to the national average of 85 percent for the rest of the country. \1\ 
\2\
---------------------------------------------------------------------------
    \1\ U.S. Department of the Interior, Budget Justification and 
Performance Information, FY 2021 Bureau of Indian Education, https://
www.doi.gov/sites/doi.gov/files/uploads/fy2021-budget-justification-
bie.pdf.
    \2\ National Center for Education Statistics, Fast Facts: High 
school graduation rates, https://nces.ed.gov/fastfacts/
display.asp?id=805.
---------------------------------------------------------------------------
    Prior to the pandemic, the federal government recognized that AI/AN 
students were being educated in inadequate facilities. For example, the 
Department of the Interior identified $629 million in deferred 
maintenance for BIE funded education facilities and $86 million in 
deferred maintenance for BIE educational quarters, including severely 
overcrowded classrooms. \3\ In addition to the crumbling physical 
infrastructure, tribal communities disproportionately lack the 
infrastructure to engage in remote education.
---------------------------------------------------------------------------
    \3\ Statement of Jason Freihage, Deputy Assistant Secretary For 
Management Office Of The Assistant Secretary For Indian Affairs 
Department of The Interior Before The Subcommittee On Interior, 
Environment, And Related Agencies, House Committee on Appropriations on 
Education Facilities And Construction (July 24, 2019), https://
www.congress.gov/116/meeting/house/109835/witnesses/HHRG-116-AP06-
Wstate-FreihageJ_20190724.pdf
---------------------------------------------------------------------------
    According to a Government Accountability Office report, only 65 
percent of individuals living on tribal lands had access to fixed 
broadband in contrast to the access rate of 92 percent for all 
Americans. \4\ Further, 34 percent of Native students nationwide do not 
have Internet access in their homes, compared to 23 percent of students 
nationwide. \5\ In addition to these infrastructure disparities that 
result in less than ideal learning conditions, the BIE has historically 
had difficulties with recruiting and retaining highly effective 
teachers. Inadequate housing, the inability for tribally controlled 
schools to provide their staff Federal Employee Health Benefits, and 
low salary make it difficult for quality teachers to consider careers 
in the BIE system.
---------------------------------------------------------------------------
    \4\ Tribal Broadband, FCC Should undertake Efforts to Better 
Promote Tribal Access to Spectrum, November 2019, United States 
Government Accountability Office, https://www.gao.gov/assets/700/
695455.pdf
    \5\ Alliance for Excellent Education, Future Ready Schools, 
Students of Color Caught in the Homework Gap, https://futureready.org/
homework-gap/
---------------------------------------------------------------------------
Congressional COVID-19 Funding Delays and Administrative Hurdles
    Initially, tribal and educational leaders were hopeful after the 
Coronavirus Aid, Relief, and Economic Security (CARES) Act was enacted 
because $153.75 million was allocated under the Department of 
Education's ``Education Stabilization Fund'' to programs operated or 
funded by the BIE. In addition to these funds, $69 million was 
appropriated directly to the BIE to prevent, prepare for, and respond 
to coronavirus. On March 31, 2020, NCAI sent an intertribal 
organizational letter alongside the National Indian Education 
Association to both the Departments of Education and Interior 
requesting that funds allocated under the CARES Act be disbursed 
quickly and with maximum flexibility to BIE funded schools. \6\ Despite 
this request, it was not until April 28th and 30th that the Department 
of Education held formal tribal listening sessions regarding the 
disbursement of the $153.75 million in funding. Finally, on June 9th, 
the BIE began distributing their directly appropriated $69 million to 
BIE schools, and on July 2nd the agency began distributing the $153.75 
from the Department of Education. \7\ This 97-day delay in releasing 
funds impaired access to distance learning, hindered schools from 
preparing for summer programming, and delayed assessment of technology 
needs as described in NCAI's testimony before the U.S. Commission on 
Civil Rights Hearing on COVID-19 in Indian Country. \8\
---------------------------------------------------------------------------
    \6\ Intertribal letter to the Department of Education, the 
Department of the Interior, and the Department of Health and Human 
Services, (March 31, 2020), http://www.ncai.org/Covid-19/
administrative/FINAL_COVID-19_Tribal_Education_Letter.pdf
    \7\ U.S. Department of Interior, BIE Listening Session, (July 2, 
2020), https://www.bia.gov/sites/bia.gov/files/assets/asia/opa/
BIE_CARES_Act_Slides%20-%20July%202nd%20Update.pdf
    \8\ National Congress of American Indians, Testimony before U.S. 
Commission on Civil Rights Hearing on COVID-19 in Indian Country: The 
Impact of Federal Broken Promises on Native Americans, (July 17, 2020), 
http://www.ncai.org/resources/testimony/written-testimony-of-president-
fawn-sharp-at-the-hearing-on-covid-19-in-indiancountry-the-impact-of-
federal-broken-promises-on-native-americans
---------------------------------------------------------------------------
    Additionally, communication from the BIE on distance learning 
guidance, responding to inquiries on the status of funding, and now 
school reopening has been inadequate at best. For example, following 
the BIE's March 14, 2020 letter announcing school closures, it took the 
agency two weeks to issue a two-page guidance memorandum on how to 
implement distance learning. \9\ This guidance was severely lacking and 
included items such as ``Plan for Student Learning: Build on a 
student's .strengths, interests, goals, and needs, and use this 
knowledge to positively impact student learning.'' This guidance 
contained very little assistance to address how to educate students who 
lacked technical aids such as computers, broadband, and sometimes even 
phone access.
---------------------------------------------------------------------------
    \9\ U.S. Department of the Interior, Dr. Tamarah Pfeiffer, Chief 
Academic Officer, Bureau of Indian Education Academic Guidance 
Memorandum, (March 30, 2020), https://beta.documentcloud.org/documents/
20074199-bureau-of-indian-educationacademic-guidance-memorandum-march-
30-2020
---------------------------------------------------------------------------
Outstanding COVID-19 Relief Needs
    As BIE funded schools begin to plan for the 2020-2021 academic 
year, it is clear that our K-12 schools do not have the resources and 
educational infrastructure to ensure a safe return for our students. To 
address this, 21 national and regional tribal organizations wrote to 
Congress to convey tribal priorities in different sectors including 
education. \10\ These requests were endorsed by the House Native Caucus 
and include, but are not limited to, the following: (1) investment in 
emergency broadband access and deployment for BIE schools and tribal 
communities; (2) at least $1 billion in emergency funding to address 
the backlog of unfunded repairs and renovations at Bureau-funded 
schools which are especially needed to address overcrowded classrooms; 
and (3) at least $1.5 billion to BIE funded schools to meet the health, 
safety, and educational needs of students due to the impacts of COVID-
19.
---------------------------------------------------------------------------
    \10\ Inter-tribal Letter to Congress on Tribal Priorities for 
COVID-19 Relief Package, (July 20, 2020), http://www.ncai.org/Covid-19/
indian-country-priorities-for-covid19-stimulus/Tribal_Inter-
org_COVID_Relief_Letter---7.20.2020--FINAL-.pdf
---------------------------------------------------------------------------
Conclusion
    Thank you again to the Committee for holding this important hearing 
on the reopening of our BIE schools. We look forward to working with 
this Committee on a bipartisan basis to ensure the U.S. upholds its 
trust and treaty responsibilities to Indian Country with respect to 
education.
                                 ______
                                 
Prepared Statement of Jordan Etcitty, Executive Director, Dine Bi Oita 
                     School Board Association, Inc.
BIE School Site Closures/Reopening
    Dear Mr. Dearman, In your testimony, you reported that you ``worked 
directly with tribes and school leaders'', however, in reality, the 
Bureau of Indian Education did not provide any communication during the 
days the pandemic hit the Navajo Nation except to direct the BIE 
schools and your administrative support offices to close. We understood 
the necessity to close the schools to on-site student instruction and 
staff close interaction. However, we believe that no one on your staff 
even considered the concept of remote learning and the school staff 
teaching from remote locations. It has been reported from School 
Boards, School Administrators, and Educational Support Programs within 
Navajo Nation that the BIE went silent since the pandemic and direction 
was not given. Since, there had been no direction from the BIE. 
contrary to what you stated in your testimony, the majority of the 
schools were closed. This meant that students were completely ignored, 
including withdrawing the Child Nutrition Program at the start of you 
directive. However, several BIE Tribally Controlled Schools stepped up 
without the assistance of BIE, and did provide services by providing at 
least the noon meal via home deli very of prepackaged meals and started 
planning then implementing Virtual instruction by working with their 
telecommunications providers. While these schools were providing 
services the BIE Operated Schools were totally dormant with respect to 
academic instruction.
    Since Late-March until early July the BIE did not provide any 
administrative or technical support. To date, there is no formal plan 
for administrators and staff for reopening. The BIE simply went mute on 
the direction for any type of planning process to provide education to 
our students. You did provide listening sessions July 9, 10, and 14, 
2020, however. most Navajo Grant Schools had begun their phases on 
reopening, without the assistance of BIE. Some of these schools are 
starting their distance learning curriculum this week. Whereas, the BIE 
Operated schools per your instructions can not start distance learning 
until September 16.
    Also. we feel you need to know that the respective State 
Departments of Education, providing services to our Navajo youth, began 
planning and communicating to their School Districts in early June 
their plans to start their schools in August with virtual learning 
models and hybrid models. The New Mexico Public Education Department 
(NM PED) even provided our BIE Students in New Mexico 2,500 Chrome 
Laptop computers to expedite the start of virtual instruction.
Cares Act
    We are grateful for the allocation of CARES ACT funding using the 
WSU method, which is the only fair and equitable distribution funding 
for BIE-funded schools. However, we had to send written pleas to you to 
consider our advice on the WSU distribution because early indications 
telegraphed by your staff indicated that this method was not going to 
be used. However, because of what we perceive, as a lack in timely 
decisions, these funds were distributed three months after 
appropriated. Because of this delay, schools now are delayed in 
acquiring the necessary logistical support items to implement virtual 
instructions and the staff training associated there with.
Conclusion
    The Bureau of Indian Education needs to work directly with school 
leaders and the education entities associated with these leaders 
whether the school is directly operated by the BIE or a BIE funded 
Tribally controlled school. A large majority of the BIE funded and 
directly administrated schools have many administrators with direct 
expertise in school operations. Perhaps you might consider taping into 
their expertise as part of your decisionmaking that impacts these 
schools. I would also like to bring to your attention that we are 
starting to receive comments that it is appearing that the BIE operated 
schools are being shown favoritism in the distribution of resources and 
if this seems to be true we trust that you will inform your staff to 
treat every BIE school equally.
    The current pandemic has brought to light the many challenges that 
we face, and we respectfully request that BIE work in a cooperative 
manner with tribal governments and school boards.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                              Marita Hinds
    Question 1. Earlier this year, NIEA published a report that 
contained results of an NIEA survey of members, educators, leaders, and 
stakeholders from April 21-30, 2020.1 This report shows that 20.9 
percent of BIE schools and four percent of Native-serving local public 
schools ``closed for the school year'' during the COVID-19 pandemic. It 
also shows that 34.3 percent of BIE schools and 11.2 percent of Native-
serving local public schools relied on physical education packets for 
distance learning delivery following campus closures. Does ``closed for 
the school year'' indicate that these schools did not offer distance 
learning opportunities following COVID-19 related campus closures?
    Answer. This is correct. Per the recent NIEA survey, ``closed for 
the school year'' is defined as ending the school year when the 
physical school closed without distance learning opportunities.

    Question 1a. Is NIEA concerned about the quality of educational 
opportunities provided to Native students attending schools that 
``closed for the school year'' or relied on physical education packets?
    Answer. NIEA is deeply concerned that students who did not receive 
any, or minimal educational instruction after their school ``closed for 
the school year'' will continue to fall behind students in schools, BIE 
and public, that deployed more robust distance learning. This homework 
gap could have profound and lasting impact on future educational 
opportunities for these students.

    Question 1b. Does NIEA believe the Department of the Interior has 
taken sufficient steps over the summer break prior to the start of the 
2020-2021 school year to assess and address barriers to distance 
learning education for Native students at BIE schools?
    Answer. On August 6, 2020, the BIE released a four-page guidance 
stating that Bureau-operated schools would operate via in-person 
academic instruction ``to the maximum extent possible.'' This comes at 
a time when numerous public-school systems nationwide--many located 
just down the street from Bureau-operated schools--are choosing to 
begin the new academic year through distance learning only. While we 
agree that students learn best while attending school in person, we are 
concerned that without robust testing and safety protocols, the spread 
of COVID-19 in Indian Country could be accelerated as a result of this 
in-person instruction. As we have seen in recent weeks, without 
rigorous adherence to proper risk-mitigation strategies, reopening 
schools can lead to disastrous results and mass quarantines of 
potentially infected students. This is especially concerning in multi-
generational households where our most vulnerable citizens, our elders, 
would be needlessly put at risk.

    Question 1c. Could you elaborate on additional action BIE must take 
to support distance and hybrid education models for schools that cannot 
reopen physical facilities due continued community spread?
    Answer. As COVID-19 continues to disproportionately impact and 
spread in Native communities, tribal nations face the possibility of 
future shutdowns to ensure the safety and wellbeing of students and 
community members. The
    Bureau must provide resources to support distance and hybrid 
learning models for schools that cannot reopen physical facilities due 
continued community spread. High-quality, updated resources must 
address critical information and funding for effective culture-based 
virtual curriculum, professional development, education technology, IT 
support, and ensuring continued education services for special 
education, English language learners, and Native language programs.

    Question 1d. Has NIEA conducted any additional COVID-19 related 
surveys since its April 2020 survey? If so, please provide and describe 
the results of those surveys.
    Answer. NIEA has not conducted any additional COVID-19 surveys 
since the April 2020 survey. We have, however, been engaged with tribal 
leaders and educators to assess the current situation in Indian Country 
as BIE schools prepare for the 2020--2021 academic year.

    Question 2. BIE's delayed release of COVID-19 funding, approval of 
waiver requests, and issuance of distance learning and safety guidance 
has reportedly negatively impacted school leaders, students, and 
teachers. Do you feel confident that all BIE schools have the resources 
they need to safely begin instruction for the upcoming school year? If 
not, what resources do you believe they lack?
    Answer. The BIE has yet to establish clear protocols for hybrid and 
distance education, instead choosing to highlight the need for students 
to return to the classroom.
    This spring, several Bureau-funded schools experienced spread of 
COVID-19 among essential staff and in the wider community when BIE 
Education Program Administrators (EPAs) failed to comply with tribal 
and state orders to close schools. This is unacceptable. Our students, 
educators, and staff must not be forced to choose between their lives, 
their education, and their livelihood. The wellbeing and safety of all, 
including those who at the frontlines of learning and opportunity in 
our communities, must be protected.
    Funding to ensure adequate sanitization, transportation, and 
staffing if school reopens this fall remains scarce. Our schools have 
long been underfunded, resulting in a number of challenges including 
old ventilation, cramped classrooms, and outdated technology unable to 
address current needs during a global pandemic.
    In the meantime, many Native communities continue to face 
outbreaks, and tribal nations have repeatedly requested hybrid and 
remote options be made available for the safety of students, staff, and 
community members. School and tribal leaders must have clear and 
transparent guidance to ensure the success of such models for our 
students. Such measures also require additional funding to ensure that 
all staff and students have access to the technology necessary for 
equity with their peers across the nation.

    Question 2a. Can you provide examples of how the funding delays 
impacted Native students? How are these delays impacting preparations 
for the coming school year?
    Answer. Despite the allocation of emergency education funding for 
Bureau-funded schools under the CARES Act on March 27, 2020, our 
schools did not report receipt of funding until three months after 
congressional approval. Some schools purchased personal protective 
equipment and education technology, as well as exceeded budgets on 
transportation for school meals and education packet delivery this 
spring with the understanding that they could use CARES Act funding to 
reimburse such expenses. However, they have been asked to foot the cost 
of such expenses, stretching already tight budgets.
    Today, many schools report that emergency funds proved only enough 
to cover basic personal protective equipment for staff and students. As 
a result, many require additional funding to provide increased 
cleaning, staffing, and transportation routes for in-person education. 
In addition, schools that reopen remotely or in a hybrid model must 
have funding to provide all students the basic technology necessary for 
educational progress in the classroom and beyond. Congress must invest 
in programs and services critical for our schools to function.

    Question 2b. Is there any guidance, technical assistance, or other 
material that you would like the Administration to provide?
    Answer. Equity in educational opportunity has become even more 
paramount during the COVID-19 pandemic. However, Bureau-funded schools 
located in rural communities with limited virtual learning 
infrastructure face unique challenges providing equitable education 
services for students that are unable to attend physical classes due to 
concerns regarding their physical well-being and health. NIEA 
recommends that the BIE expand specific guidance for continued 
education services aligned with that of the Department of Education, 
which school and tribal leaders may use to develop learning programs 
and services that address the unique needs of Native students. Such 
guidance must address support, challenges, and flexibilities for both 
hybrid and remote education due to the unique needs of tribal students 
and communities.

    Question 3. Your testimony underscores the need for ensuring Native 
school communities have access to mental and behavioral health services 
to deal with trauma and stress caused by the COVID-19 pandemic. BIE 
Director Dearman indicated in his testimony that the Bureau plans to 
reserve ``$8 million for direct mental and behavioral health support 
for BIB-funded schools'' from its CARES Act funds. He also indicated 
that BIE has certified 300 staff members in ``Youth Mental Health First 
Aid'' and collaborated with NIEA on a webinar series for BIE staff that 
focused on the principles of self-care and coping with trauma and 
stress. However, he provides no additional details about Administration 
efforts to address mental and behavioral health needs of BIE school 
communities. As of the date of this hearing, were you aware of any 
outreach from the Administration to Tribes, school leaders, or 
communities about mental health and behavioral health needs of Native 
students for the upcoming school year?
    Answer. NIEA collaborated with the BIE on a webinar series to 
provide strategies, tools, and resources for BIE staff and NIEA members 
coping with trauma and stress. In addition, the BIE has highlighted the 
need for localized mental and behavioral health programs that serve the 
unique needs of students in a given school or community. The BIE has 
conducted a series of surveys to school leaders to gather information 
about needs moving into the school year. NIEA is unable to confirm at 
this time whether such surveys contain questions regarding mental and 
behavioral health needs, though it is possible.

    Question 3a. What types of mental and behavioral health supports 
does NIEA feel Native communities and schools need? And, what kind of 
resources would be most helpful in providing those supports?
    Answer. Trauma related to the impact of COVID-19 in our families in 
communities follows Native students into the classroom. Educators and 
staff must have culturally responsive training to support trauma-
informed education services. Though NIEA appreciates the emphasis on 
mental health in the BIE reopening plan, additional details and 
guidance for school implementation is crucial to ensure effective and 
consistent implementation for our most vulnerable learners.

    Question 3b. To your knowledge, has BIE shared any additional 
details with Tribes or Native educational stakeholders about their 
plans for the $8 million in CARES Act monies the Bureau reserved to 
provide mental and behavioral health supports?
    Answer. At this point, the BIE has yet to share many details 
regarding the planned use of funds for mental and behavioral health 
supports. Some officials have mentioned a possible partnership with the 
Indian Health Service, and the need for localized programming. However, 
the BIE has yet to provide public details regarding the overall use of 
these funds.

    Question 3c. To your knowledge, has BIE consulted with Tribes or 
sought feedback from Native education stakeholders regarding 
development of a plan on how to spend the $8 million in CARES Act 
monies the Bureau reserved to provide mental and behavioral health 
supports?
    Answer. The BIA conducted a consultation on the use of all CARES 
Act funding provided through the Bureau, including that provided to the 
Bureau of Indian Education, on Thursday April 2, and Thursday April 9. 
Later, the BIE participated in a joint consultation with the Department 
of Education on Tuesday, April 28 and Thursday, April 30 to address the 
use of CARES Act funding provided through the Education Stabilization 
Fund. From July 8-14, the BIE conducted consultation on the spending 
plan for CARES Act funds and reopening schools across the system.
    None of the consultations focused on mental or behavioral health 
supports, and no specific details were provided regarding the plan to 
spend the $8 million in CARES Act reserved for mental and behavioral 
health supports. However, BIE officials mentioned the need for such 
programming in each one. One senior official mentioned the possibility 
of partnering with the Indian Health Services, while all emphasized the 
need for a localized approach.
    Thank you for considering these answers for the record. NIEA looks 
forward to working alongside the Committee to ensure safety, wellbeing, 
and educational opportunity for the only students that the federal 
government has a direct responsibility to educate-Native students.
                                 ______
                                 

    *RESPONSES TO THE FOLLOWING QUESTIONS FAILED TO BE 
SUBMITTED AT THE TIME THIS HEARING WENT TO PRINT*

            Written Questions Submitted by Hon. Tom Udall to
                         Dr. David Yarlott, Jr.
    Question 1. Do you feel confident that all TCUs have the resources 
they need to safely begin instruction for the upcoming school year? If 
not, what resources do you believe they lack?

    Question 2. Is there any guidance, technical assistance, 
professional development opportunities, or other materials that you 
would like the Administration to provide TCUs to help navigate the 
COVID-19 pandemic?

    Question 3. As you acknowledge in your written testimony, compared 
to 2-year and 4-year institutions nationally, TCUs have lower Internet 
connectivity levels and slower IT replacements rates. What other 
resources are needed to ensure TCUs have the flexibility and capacity 
to implement hybrid or distance education models for the upcoming 
school year?

    Question 4. Your testimony underscores the need for ensuring Native 
school communities have access to mental and behavioral health services 
to deal with trauma and stress caused by the COVID-19 pandemic. BIE 
Director Dearman indicated in his testimony that the Bureau plans to 
reserve ``$8 million for direct mental and behavioral health support 
for BIE-funded schools'' from its CARES Act funds. However, he provides 
no additional details about Administration efforts to address mental 
and behavioral health needs of Native students nor does he address the 
mental and behavioral health needs of TCU students at all.As of the 
date of this hearing, were you aware of any outreach from the 
Administration to Tribes, TCUs, or communities about mental health and 
behavioral health needs of Native students for the upcoming school 
year?

    Question 4a. What types of mental and behavioral health supports 
does AIHEC feel Native communities and TCUs need? And, what kind of 
resources would be most helpful in providing those supports?

    Question 4b. To your knowledge, has BIE shared any additional 
details with Tribes, TCUs, or Native educational stakeholders about 
their plans for the $8 million in CARES Act monies the Bureau reserved 
to provide mental and behavioral health supports?

    Question 4c. To your knowledge, has BIE consulted with Tribes or 
sought feedback from TCUs or Native education stakeholders regarding 
development of a plan on how to spend the $8 million in CARES Act 
monies the Bureau reserved to provide mental and behavioral health 
supports?
                                 ______
                                 
            Written Questions Submitted by Hon. Tom Udall to
                            Tony L. Dearman
    Question 1. Several news reports suggest that confusion about BIE 
campus closure policies caused a number of Bureau-funded schools on the 
Navajo reservation to remain open for weeks after the BIE sent its 
March 14th school closure letter. \1\ These schools experienced COVID-
19 related outbreaks and, potentially, even deaths. Across the BIE 
system, how many students and staff are known to have contracted COVID-
19? Is the Department aware of any BIE students or staff infected with 
COVID-19 on school campuses?
---------------------------------------------------------------------------
    \1\ Krista Allen, Some BIE Employees Still Reporting for Work, 
Navajo Times, April 4, 2020; Alden Woods, A School on Navajo Nation 
Stayed Open. Then People Started Showing Symptoms, ProPublica, April 7, 
2020; Rebecca Klein and Neal Morton, As Coronavirus Ravaged Indian 
Country, The Federal Government Failed Its Schools, HuffPost, June 27, 
2020.

    Question 1a. Across the BIE system, how many BIE students and staff 
are known to have died from COVID-19? Is the Department assessing 
whether any of these deaths may have been related to transmission of 
---------------------------------------------------------------------------
the coronavirus on BIE school campuses?

    Question 1b. Does the Bureau have any reason to believe that the 
failure to close BIE campuses promptly in mid-March may have 
contributed to community spread of COVID-19 on the Navajo Reservation?

    Question 2. During the hearing, you confirmed that the Occupational 
Safety and Health Administration (OSHA) is conducting an investigation 
into BIE.Is this investigation related to spread of COVID-19 on a BIE 
school campus or BIE facility? And, is it related to any BIE employee 
deaths from COVID-19?

    Question 2a. Please provide any additional information regarding 
the circumstances that triggered this investigation.

    Question 3. On April 6, 2020, my staff requested the Department 
provide information detailing which distance learning delivery methods 
each BIE school was using following the closure of BIE campuses in 
March. \2\ Department staff and my staff continued discussion about 
collection and reporting of this information during bicameral 
Congressional briefings held on April 13, \3\ April 20, \4\ and April 
27, 2020. \5\ In response to these requests, on May 4, 2020, DOI Office 
of Congressional and Legislative Affairs Advisor Aaron Thiele emailed 
my staff a spreadsheet that indicated ``Y'' or ``N'' to describe the 
``educational opportunities provided'' at each BIE school during the 
COVID-19 related campus closures. \6\ During a subsequent bicameral 
Congressional briefing on May 11, 2020, my staff informed you and the 
Department that this spreadsheet did not provide sufficient detail 
regarding the manner of distance learning delivery at each school to 
satisfy my information request. \7\ On June 8, 2020, I sent a letter to 
Secretaries Bernhardt and DeVos renewing my request for information on 
the distance learning capabilities of each Bureau-funded school and 
Tribal College and University (TCU). \8\ As of the date of submission 
of these questions for the record, I have not received a response to 
this information request or letter. Please answer those questions, 
reproduced below, for the record. Has DOI or the Department of 
Education collected any data on (i.) Which Bureau-funded schools and 
TCUs offered distance learning opportunities to their students 
following COVID-19-related campus closures; (ii.) Which method(s) each 
school used to deliver instruction during this period, if so how are 
your Departments assessing the success of that instructional delivery; 
and (iii.) The percentage of BIE and TCU students that have consistent 
access to computer equipment and broadband Internet for participating 
in online learning opportunities?
---------------------------------------------------------------------------
    \2\ Briefing from the Bureau of Indian Educ., to Cong. Comms. of 
Juris. (April 6, 2020).
    \3\ Briefing from the Dep't of the Interior and Indian Health 
Service to S. Comm. on Indian Affairs, S. Comm. on Health, Educ., 
Labor, & Pensions, S. Comm. on Appropriations, H. Comm. on Natural 
Resources, H. Comm. on Energy & Commerce, H. Comm. on Ways & Means, H. 
Comm. on Appropriations (Apr. 13, 2020).
    \4\ Briefing from the Dep't of the Interior and Indian Health 
Service to S. Comm. on Indian Affairs, S. Comm. on Health, Educ., 
Labor, & Pensions, S. Comm. on Appropriations, H. Comm. on Natural 
Resources, H. Comm. on Energy & Commerce, H. Comm. on Ways & Means, H. 
Comm. on Appropriations (Apr. 20, 2020).
    \5\ Briefing from the Dep't of the Interior and Indian Health 
Service to S. Comm. on Indian Affairs, S. Comm. on Health, Educ., 
Labor, & Pensions, S. Comm. on Appropriations, H. Comm. on Natural 
Resources, H. Comm. on Energy & Commerce, H. Comm. on Ways & Means, H. 
Comm. on Appropriations (Apr. 27, 2020).
    \6\ Email from Aaron J. Thiele, Advisor, Office of Cong. & 
Legislative Affairs, U.S. Dep't of the Interior, to Kimberly Moxley, 
Senior Policy Advisor, Office of the Vice Chairman, S. Comm. on Indian 
Affairs (May 4, 2020, 04:24 EDT) (on file with S. Comm. on Indian 
Affairs).
    \7\ Briefing from the Bureau of Indian Educ., to Cong. Comms. of 
Juris. (May 11, 2020).
    \8\ Letter from Sen. Tom Udall, Sen. Patty Murray, Sen. Jon Tester, 
Sen. Elizabeth Warren, Sen. Martin Heinrich, Sen. Krysten Sinema, Sen. 
Tina Smith, Sen. Bernard Sanders, Sen. Jacky Rosen, Sen. Tammy Baldwin, 
Sen. Jeffrey Merkley, & Sen. Maria Cantwell to David Bernhardt, Sec'y, 
Dep't of the Interior and Betsy DeVos, Sec'y, Dep't of Educ. (Jun. 8, 
2020)

    Question 3a. If neither Department has collected any of the data 
listed above, please provide a timeline for providing a data collection 
---------------------------------------------------------------------------
plan to Congress.

    Question 3b. How has DOI ensured that BIE peripheral dormitory 
residents are able to access distance learning opportunities offered by 
the non-BIE schools they attend?

    Question 3c. How has DOI ensured that BIE students with 
disabilities have equal access to educational opportunities and the 
services identified in their individual education programs during 
COVID-19-related campus closures?

    Question 3d. What distance learning guidance and technical 
assistance have DOI provided to Tribes, BIE-funded schools, and TCUs?

    Question 3e. What distance learning resources has DOI offered BIE 
and TCU administrators, educators, parents, and students?

    Question 3f. What steps has DOI undertaken to ensure BIE schools 
and TCUs are prepared to continue distance learning or modify their 
instructional plans for the 2020-2021 school year?

    Question 4. On July 24, 2020, I sent you and other Administration 
officials a letter describing growing concern for the wellbeing of 
Native youth during the COVID-19 pandemic. \9\ The letter contained 
five questions related to Administration's responsibility to provide 
Native youth with accessible, comprehensive, and culturally competent 
mental health care services. We asked that you respond to these 
questions by August 12, 2020, but we did receive a response by that 
deadline. Please answer those questions, reproduced below, for the 
record.
---------------------------------------------------------------------------
    \9\ Letter from Sen. Tina Smith, Sen. Tom Udall, Sen. Elizabeth 
Warren, Sen. Martin Heinrich, Sen. Catherine Cortez Masto, and Sen. Ron 
Wyden to Michael Weahkee, Director, Indian Health Service, Tara 
Sweeney, Assistant Sec'y for Indian Affairs, Dep't of the Interior, 
Tony Dearman, Director, Bureau of Indian Educ., Ruth Ryder, Acting 
Director Dep't of Education Office of Indian Educ., and Elinore 
McCance-Katz, Assistant Secretary for Mental Health and Substance Use, 
Dep't of Health & Human Services (Jul. 24, 2020).

        a. Has DOI conducted any consultations or outreach to Tribal 
        leaders, public health officials, school boards, teachers, 
        families, or students to gather feedback on COVID-19 related 
        mental and behavioral health Native youth needs and best 
---------------------------------------------------------------------------
        practices?

        b. What steps has DOI taken to address the mental and 
        behavioral health needs of Native students since the beginning 
        of this public health emergency, and how do you plan to address 
        these issues going forward?

        c. How is BIE with other federal agencies (e.g., the Department 
        of Education, IHS, the Centers for Disease Control and 
        Prevention, Administration for Children and Families, and 
        SAMHSA) to ensure that Native students can and will continue to 
        receive the mental health services they rely on when the school 
        year starts this fall?

        d. Do BIE or other agencies need further funding or statutory 
        authority to support school capacity to address the mental 
        health needs of Native students?

        e. Given that Native communities prefer to utilize culturally-
        informed mental health services, \10\ how is DOI working to 
        increase access to culturally competent mental health care 
        during the COVID-19 pandemic?
---------------------------------------------------------------------------
    \10\ AMERICAN PSYCHIATRIC ASSOCIATION, MENTAL HEALTH DISPARITIES: 
AMERICAN INDIANS AND ALASKA NATIVES'' DIVISION OF DIVERSITY AND HEALTH 
EQUITY (2017), available at https://www.psychiatry.org/File%20Library/
Psychiatrists/Cultural-Competency/Mental-Health-Disparities/Mental-
Health-Facts-for-American-Indian-Alaska-Natives.pdf.

    Question 5. BIE conducted online staff and parent surveys to 
collect input about returning to in-person instruction for the 2020-
2021 school year. The survey response window closed on July 17, 2020. 
During a bicameral Congressional briefing on July 20, 2020, you 
informed Congressional staff that the Department had received several 
thousand responses to the surveys and, while the Department was still 
reviewing responses, an initial review suggested that not many 
respondents wanted to resume in-person instruction. \11\ However, since 
then, I am not aware of any materials published by the Department that 
summarize the survey results. What are the Department's plans to share 
the results of these surveys? Will the Department publish them publicly 
or on the Bureau's website?
---------------------------------------------------------------------------
    \11\ Briefing from the Dep't of the Interior and Indian Health 
Service to S. Comm. on Indian Affairs, S. Comm. on Health, Educ., 
Labor, & Pensions, S. Comm. on Appropriations, H. Comm. on Natural 
Resources, H. Comm. on Energy & Commerce, H. Comm. on Ways & Means, H. 
Comm. on Appropriations (Jul. 20, 2020).

    Question 5a. Why did the Department decide to deploy these surveys 
from late June through mid-July? Did the Department discuss the 
possibility that the results of these surveys would return too late to 
inform policy and resource decisions prior to the anticipated start 
---------------------------------------------------------------------------
date in early August for many Bureau-funded schools?

    Question 5b. How many responses did the Department receive to the 
referenced staff and parent surveys, respectively?

    Question 5c. How many responses indicated that respondents had 
concerns with resuming in-person instruction for the 2020-2021 school 
year?

    Question 5d. How many respondents indicated they did not have 
access to the broadband or IT equipment necessary to participate in 
online distance learning?

    Question 6. On June 23, 2020, Assistant Secretary Sweeney sent a 
letter to Tribal leaders sharing a draft BIE School Reopening Plan and 
soliciting feedback on the \12\ same. \13\ This draft plan states, 
``Any action taken to reopen a school should be done in coordination 
with a school's respective BIE Education Program Administrator (EPA) 
and should utilize guidance from pertinent local, state, and Tribal 
officials as well as local public health officials.'' It further states 
that school administrators ``should consider state, Tribal, local 
emergency orders, level of community transmission'' and ``when local 
infection rates have slowed significantly.'' Additionally, it states:
---------------------------------------------------------------------------
    \12\ Letter from Tara Sweeney, Assistant Sec'y for Assistant Sec'y 
for Indian Affairs, Dep't of the Interior to Tribal Leaders (Jun. 23, 
2020) (available at https://www.bia.gov/sites/bia.gov/files/assets/as-
ia/opa/pdf/
IAFR0827%20Updated%20DTLL%20BIE%20School%20Reopening%20Plan_2020-07-
01_1508.pdf).
    \13\ Bureau of Indian Educ. School Reopening Plan (2020), available 
at https://www.bia.gov/sites/bia.gov/files/assets/as-ia/opa/pdf/
BIE%20School%20Reopening%20Plan%207.2.2020_ASIA%20revised_508.pdf.

         ``School administrators are responsible for the development of 
        their individual reopening plans for the 2020-2021 School Year 
        with approval from the respective BIE EPA.EPAs hold the 
        authority to reopen and/or close school sites. The decision 
        should be made in consultation with BIE Associate Deputy 
        Directors (ADD), school leadership, Tribal leadership, local 
        Public Health Officials and Local Incident Commands, if 
---------------------------------------------------------------------------
        applicable.''

    However, on August 6, 2020, Assistant Secretary Sweeney sent 
another letter to Tribal leaders indicating that the Department's 
preference to resume in-person instruction ``to the maximum extent 
possible'' at Bureau-operated schools, and encouraging Tribally-
operated schools to ``take the recommendations included as guidance to 
inform their general operations and to prepare each learning 
environment for the 2020-2021 school year.'' \14\
---------------------------------------------------------------------------
    \14\ Letter from Tara Sweeney, Assistant Sec'y for Assistant Sec'y 
for Indian Affairs, Dep't of the Interior to Tribal Leaders (Aug. 6, 
2020) (available at https://www.bia.gov/sites/bia.gov/files/assets/as-
ia/opa/pdf/2020_0806_BIE_DTLL_ReturningToSchool_508.pdf).

    These communications from the Department appear to send conflicting 
messages about who will determine when to resume in-person instruction 
at Bureau-funded schools and what factors decision-makers will use to 
---------------------------------------------------------------------------
make these decisions.

    a. For Tribally-controlled grant and contract schools, can the 
Department, Bureau, or EPA override these schools' decision to resume 
in-person instruction or to continue utilizing distance learning?

    1b. Will the Department resume in-person instruction at all Bureau-
operated schools on September 16th, including schools where resuming 
in-person instruction would conflict with state, Tribal, local 
emergency orders; state, Tribal, or local public health guidance; 
Tribal leader preferences; and school community preferences?

    c. What metrics, if any, will the Department use to monitor and 
determine whether levels of community transmission and infection rates 
have slowed sufficiently to make return to in-person instruction safe 
for students, staff, and the communities where the each school is 
located?

    Question 7. Given what is known about coronavirus's spread through 
airborne transmission in enclosed spaces with poor ventilation, there 
is legitimate concern that BIE's aging school infrastructure is ill-
equipped to safely house students. How does BIE plan to ensure the 
health and safety conditions of BIE school facilities during the 
pandemic prior to resuming in-person instruction?

    Question 7a. Has the Bureau conducted any assessments of the 
ventilation systems in BIE facilities to determine what risks they 
might pose to coronavirus containment and mitigation strategies 
developed to ensure in-person instruction is safe for students and 
staff?

    Question 8. The Department's decision to delay to the start of the 
2020-2021 school year for Bureau-operated schools has caused confusion 
for BIE staff who work under contract with the Bureau. My staff has 
heard from a number of such staff who are now concerned about their pay 
and benefits, including housing for those who reside in Bureau-owned 
residences. It is my understanding that many BIE staff have not 
received direct communications from the Department regarding these 
matters. Additionally, I understand that deployment of a new BIE email 
and online portal system in April has left many BIE staff without the 
required Personal Identification Verification (PIV) credential cards 
necessary to access the online BIE systems. Has the Department 
communicated with BIE staff about the impacts of the school year start 
delay on pay and benefits? If so, please indicate the date and manner 
of these communications. Additionally, please provide a copy of any 
official communications sent to BIE staff by you, the ADD for Bureau-
operated Schools, or the ADD for Navajo on this topic.

    Question 8a. Will the Department continue benefits, including 
health insurance coverage, life insurance coverage, and housing without 
interruption for BIE staff impacted by the school year start delay?

    Question 8b. Is the Department aware that the changeover in BIE 
email systems left many BIE staff members unable to access these 
systems?

    Question 8c. What impacts did the inability of many BIE staff 
members to access the Bureau's email system and other online portals 
have on delivery of distance learning instruction during the Spring 
2020 term and on the ability of these employees to successfully 
telework?

    Question 9. Numerous education policy experts, economists, and news 
outlets are discussing the impacts that the COVID-19 pandemic might 
have on the teacher workforce, including the possibility that many 
retirement-age educators will opt to leave the workforce rather than 
risk returning to unsafe school environments. Prior to the pandemic, 
the Bureau's vacancy rates were already high over several years; the 
Government Accountability Office stated in its 2019 High Risk Report 
that lack of staff capacity continues to be a challenge for the Bureau. 
\15\ Additionally, I understand that the Bureau's human resources 
department estimates that 30 percent of BIE staff are retirement-
eligible. What were the teacher and staff vacancy rates at BIE 
immediately prior to campus closures in March, 2020?
---------------------------------------------------------------------------
    \15\ U.S. GOV'T ACCOUNTABILITY OFFICE, GAO-19-157SP, HIGH-RISK 
SERIES: SUBSTANTIAL EFFORTS NEEDED TO ACHIEVE GREATER PROGRESS ON HIGH-
RISK AREAS 129-130 (2019).

    Question 9a. Has the Bureau seen an increase in teacher and staff 
---------------------------------------------------------------------------
vacancies since March, 2020?

    Question 9b. Has the Bureau seen an increased rate of retirements 
compared to the previous three years?

    Question 9c. To what extent is BIE's response to the pandemic 
affected by its lack of staff capacity?

    Question 9d. What is the Bureau currently doing to fill vacancies?

    Question 10. The Bureau's plan for spending CARES Act funds 
includes investments in schools' IT systems, Internet connectivity, 
sanitation equipment, personal protective equipment, and other virus 
spread mitigation-related infrastructure and equipment. Has BIE 
solicited any no-bid or limited bid procurement contracts for COVID-19 
related supplies?

    Question 10a. Has the Bureau entered into a procurement contract 
for COVID-19 related supplies with any new vendors with whom the 
Bureau, Department, or federal government had limited to no prior 
federal contracting experience?

    Question 10b. Has the Bureau entered into any procurement contracts 
for COVID-19 related supplies with any companies incorporated within 
the last year?

    Question 10c How many staff does BIE have in its Acquisitions 
Office to handle the increase in schools' procurement demands?

    Question 10d. Do these staff have sufficient expertise in IT issues 
to assist schools?
                                 ______
                                 
         Written Questions Submitted by Hon. Martha McSally to
                            Tony L. Dearman
    Question 1. Within the BIE school system there are both BIE run and 
tribally run schools. We understand that the Department will put out 
school re-opening and operation guidance after reviewing comments 
received from tribal leaders, teachers and administrators and parents. 
After local leaders have had an opportunity to review guidance from the 
Department and asses local conditions, can you confirm that tribally 
run schools will be able to make operational decisions based on what is 
best for their schools at the local level? How will the BIE resolve 
issues that may arise from conflicting guidance between BIE, tribal, 
state, and local guidelines?

    Question 2. Does the BIE plan to direct schools to re-open their 
residential programs? If so, what type of support from BIE will be 
available to help schools and residential programs with the increased 
costs of mitigating the potential spread of COVID-19? How will funding 
be affected if residential programs must delay their re-opening due to 
local health guidelines?

    Question 3. I worked with my colleagues to secure significant 
funding in the CARES Act specifically for BIE to aid schools as they 
sight to finish the spring semester of 2019. I have heard some 
frustration from tribes in Arizona about delays associated with the 
disbursement of CARES Act education funding. Congress is currently 
debating potential additional funding to aid BIE schools with the many 
costs they will incur for distance learning and to prepare for a 
resumption of in-person learning.
    What steps has the BIE taken to improve communications about COVID 
Education funding, disbursement and permissible uses since CARES Act 
was passed? If additional funding is approved by Congress, does BIE you 
have the mechanisms in place to disburse that funding to the schools in 
a timely manner? Does BIE plan to place restrictions on funding based 
on distance or in person learning? Will transportation funding be 
impacted if schools must utilize virtual learning for at least part of 
the year?
    Question 4. As you know, broadband and Internet access remains a 
challenge in tribal communities in Arizona. How can the BIE and BIA 
assist tribes and schools with accessibility for a virtual and face-to-
face hybrid type instruction?

                                  <all>
</pre></body></html>
